No. 19-____
IN THE

Supreme Court of the United States
ENZO LIFE SCIENCES, INC.,
v.

Petitioner,

ROCHE MOLECULAR SYSTEMS, INC., ROCHE
DIAGNOSTICS CORPORATION, ROCHE DIAGNOSTICS
OPERATIONS, INC., ROCHE NIMBLEGEN, INC., BECTON
DICKINSON AND COMPANY, AKA Becton Dickson and
Company, BECTON DICKINSON DIAGNOSTICS INC., AKA
Becton Dickson Diagnostics, GENEOHM SCIENCES
INC., ABBOTT LABORATORIES, ABBOTT MOLECULAR,
INC.,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT,
NOS. 17-2498, -2499, -2545, -2546
PETITION FOR A WRIT OF CERTIORARI
JOHN M. DESMARAIS
JUSTIN P.D. WILCOX,
Counsel of Record
DESMARAIS LLP
230 Park Avenue
New York, NY 10169
(212) 351-3400
jwilcox@desmaraisllp.com

PETER C. MAGIC
DESMARAIS LLP
101 California Street
San Francisco, CA
94111
(415) 573-1900

February 26, 2020

QUESTIONS PRESENTED
I.

In light of a patent’s presumption of validity
under 35 U.S.C. § 282 and the concomitant clear
and convincing standard for proving invalidity,
may patent claims that cover a class be
invalidated as non-enabled under 35 U.S.C. § 112
based on a finding of high unpredictability in the
art despite an absence of any evidence of
inoperability within the class?

II. In concluding that the patent claims that cover a
class are invalid as non-enabled under 35 U.S.C.
§ 112 despite an absence of any evidence of
inoperability within the class, did the United
States Court of Appeals for the Federal Circuit
(“Federal Circuit”) erroneously shift the burden to
the patent owner to prove the claims were
enabled, and therefore valid, in violation of the
presumption of validity under 35 U.S.C. § 282?

i

PARTIES TO THE PROCEEDING
All parties to the proceeding are identified in the
caption.
RULE 29.6 STATEMENT
Petitioner Enzo Life Sciences, Inc. is a wholly
owned subsidiary of Enzo Biochem, Inc., which is a
publicly held company that owns 10 percent or more
of Enzo Life Sciences, Inc.’s stock.
RELATED PROCEEDINGS
The following federal cases are directly related to
this petition before this Court:


Enzo Life Sciences, Inc. v. Roche Molecular
Systems, Inc., Roche Diagnostics Corporation,
Roche Diagnostics Operations, Inc., Roche
Nimblegen, Inc., Becton, Dickinson and
Company, Becton Dickinson Diagnostics Inc.,
Geneohm Sciences Inc., Abbott Laboratories,
Abbott Molecular, Inc., Nos. 2017-2498, 20172499, 2017-2545, 2017-2546, United States
Court of Appeals for the Federal Circuit.
Judgment entered June 20, 2019.



Enzo Life Sciences, Inc. v. Abbott Laboratories
and Abbott Molecular, Inc., Nos. 12-cv-274, 13cv-225, United States District Court for the
District of Delaware. Judgment entered
September 1, 2017.



Enzo Life Sciences, Inc. v. Roche Molecular
Systems, Inc.; Roche Diagnostics Corporation;
Roche Diagnostics Operations, Inc.; and Roche

ii

Nimblegen, Inc., No. 12-cv-106, United States
District Court for the District of Delaware.
Partial judgment entered on August 2, 2017.


Enzo Life Sciences, Inc. v. Becton, Dickinson
and Company; Becton Dickinson Diagnostics
Inc.; and Geneohm Sciences, Inc., No. 12-cv275, United States District Court for the
District of Delaware. Partial judgment
entered on July 31, 2017.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING ............................ii
RULE 29.6 STATEMENT ...........................................ii
RELATED PROCEEDINGS .......................................ii
TABLE OF APPENDICES......................................... vi
TABLE OF AUTHORITIES ...................................... vii
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 2
JURISDICTION .......................................................... 2
PERTINENT STATUTORY PROVISIONS ............... 3
STATEMENT OF THE CASE .................................... 4
I.

Background ........................................................ 4
A.

Nucleic Acid Hybridization ......................... 4

B.

The State Of The Art Before June 1982 .... 5

C.
The Inventions Of The ’180 And ’405
Patents .................................................................. 6
II.

Prior Proceedings ......................................... 10

A.

District Court ............................................ 10

B.

Federal Circuit .......................................... 11

REASONS FOR GRANTING THE PETITION ....... 13
I. The Federal Circuit’s Invalidation Of The
Patents Without Evidence Of Inoperable Members
Of The Claimed Classes Undermines The
Statutory Burden And Standard Of Proof For
Challenges To Patent Validity. ............................. 13
iv

A.
To Show That A Patent Is Invalid, A
Challenger Must Meet A Clear And Convincing
Standard Of Proof. .............................................. 13
B.
The Federal Circuit Applies An “Undue
Experimentation” Test To Patent Validity
Challenges Under The Enablement Requirement
Of § 112. .............................................................. 15
C.
The Federal Circuit Applies An EightFactor Factual Test To Evaluate The Degree Of
Experimentation. ................................................ 18
D.
In The Present Case, The Predictability Of
The Art Controlled The Federal Circuit’s
Analysis Of The Wands Factors, Despite A Lack
Of Evidence Of Inoperable Embodiments Within
The Claimed Class. ............................................. 19
E.
The Federal Circuit’s Invalidation Of
Patent Claims Without Evidence Of Inoperable
Embodiments In The Claimed Class Warrants
Review And Reversal. ......................................... 23
CONCLUSION .......................................................... 27

v

TABLE OF APPENDICES
Page
APPENDIX A — Opinion Of The United States
Court Of Appeals For The Federal Circuit, Filed
June 20, 2019............................................................. 1a
APPENDIX B — Memorandum Opinion Of The
United States District Court For The District Of
Delaware, Filed August 15, 2017............................ 19a
APPENDIX C — Memorandum Opinion Of The
United States District Court For The District Of
Delaware, Filed June 28, 2017 ............................... 44a
APPENDIX D — Denial Of Rehearing Of The United
States Court Of Appeals For The Federal Circuit,
Filed October 29, 2019 ............................................ 67a

vi

TABLE OF AUTHORITIES
Page
Cases
Alcon Research Ltd. v. Barr Labs., Inc.,
745 F.3d 1180 (Fed. Cir. 2014) ............ 14, 15, 19, 24
Allergan, Inc. v. Sandoz Inc.,
796 F.3d 1293 (Fed. Cir. 2015) ........................ 14, 15
Application of Angstadt,
537 F.2d 498 (C.C.P.A. 1976) ................................. 17
Application of Eltgroth,
419 F.2d 918 (C.C.P.A. 1970) ................................. 15
Atlas Powder Co. v. E.I. du Pont De Nemours & Co.,
750 F.2d 1569 (Fed. Cir. 1984) ........................ 13, 16
Bene v. Jeantet,
129 U.S. 683 (1889) ................................................ 18
Bonito Boats, Inc. v. Thunder Craft Boats, Inc.,
489 U.S. 141 (1989) ................................................ 26
Coffin v. Ogden,
85 U.S. 120 (1873) .................................................. 27
Consol. Elec. Light Co. v. McKeesport Light Co.,
159 U.S. 465 (1895) ................................................ 18
Fields v. Conover,
443 F.2d 1386 (C.C.P.A. 1971) ............................... 16
Howard v. Detroit Stove Works,
150 U.S. 164 (1893) ................................................ 18
Idenix Pharmaceuticals LLC v. Gilead Sciences, Inc.,
941 F.3d 1149 (Fed. Cir. 2019) ........................ 24, 25
Microsoft Corp. v. i4i Ltd.,
564 U.S. 91 (2011) ................................ 13, 14, 26, 27
vii

Minerals Separation v. Hyde,
242 U.S. 261 (1916) ......................................... 18, 27
W.L. Gore & Assocs., Inc. v. Garlock, Inc.,
721 F.2d 1540 (Fed. Cir. 1983) ........................ 16, 18
Wyeth & Cordis Corp. v. Abbott Laboratories,
720 F.3d 130 (Fed. Cir. 2013) .............. 12, 19, 23, 24
Statutes
28 U.S.C. § 1254(1) (2016)........................................... 2
28 U.S.C. § 1331 (2016) ............................................. 10
28 U.S.C. § 1338(a) (2016)......................................... 10
35 U.S.C. § 112 (2006) ....................................... passim
35 U.S.C. § 282 (2012) ....................................... passim

viii

INTRODUCTION
Since at least 1916, this Court has recognized that
a patent remains valid even if practicing the disclosed
invention requires some degree of experimentation.
An inventor may gain the monopoly granted by the
patent laws without performing the impossible task of
describing the precise embodiment that would be most
commercially successful in each case. To invalidate a
patent a challenger must do more than show that
practicing the patent, as disclosed, requires
experimentation; a challenger must show that
practicing
the
patent
requires
undue
experimentation.
This petition arises from the Federal Circuit’s
relaxation of the standard of proof required to show
that a patent is non-enabled under 35 U.S.C. § 112.
The patent statutes, this Court’s precedent, and
Federal Circuit precedent all unequivocally require a
patent challenger to demonstrate non-enablement by
clear and convincing evidence.
The Federal Circuit’s precedent in this case,
however, allows a challenger to invalidate a patent
that claims a class with particular functionality
without clear and convincing evidence of undue
experimentation. A challenger need only show that
the claimed class is large and that skilled artisans of
the time doubted the functionality of the invention. A
challenger need not proffer any evidence of
inoperability within the class. Without such evidence,
and relying instead only on mistaken disbelief in the
invention, it is impossible to draw any distinction
between permissible and undue experimentation
1

needed to practice an invention.
In applying such a lax standard, the Federal
Circuit’s precedential opinion contradicts a century of
its own and this Court’s precedent and contravenes
the standard of proof for proving patent invalidity. For
this reason, the Federal Circuit’s decision is improper
and warrants reversal.
OPINIONS BELOW
The district court’s opinions finding U.S. Patent
Nos. 6,992,180 (the “’180 patent”) and 8,097,405 (the
“’405 patent”) not enabled are unreported but
available at 2017 WL 2829625 and 2017 WL 3585618,
respectively, and reprinted at App. 19a–43a and 45a–
66a, respectively. The Federal Circuit affirmed the
district court judgment, as reported at 928 F.3d 1340
(2019) and reprinted at App. 1a–18a, and denied
rehearing in an order that is unreported but reprinted
at App. 67a–69a.
JURISDICTION
The Federal Circuit rendered its decision on June
20, 2019, App. 1a, and on October 29, 2019, denied
rehearing, App. 67a. On January 16, 2020, Chief
Justice Roberts granted application 19A800,
extending the time to file this petition to and including
February 26, 2020. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).

2

PERTINENT STATUTORY PROVISIONS
35 U.S.C. § 112 (2006) provides in relevant part:
Specification
The specification shall contain a written
description of the invention, and of the
manner and process of making and using it, in
such full, clear, concise, and exact terms as to
enable any person skilled in the art to which
it pertains, or with which it is most nearly
connected, to make and use the same.
35 U.S.C. § 282 provides in relevant part:
Presumption of validity; defenses
(a) In General.—
A patent shall be presumed valid. Each claim
of a patent (whether in independent,
dependent, or multiple dependent form) shall
be presumed valid independently of the
validity of other claims; dependent or multiple
dependent claims shall be presumed valid
even though dependent upon an invalid claim.
The burden of establishing invalidity of a
patent or any claim thereof shall rest on the
party asserting such invalidity.

3

STATEMENT OF THE CASE
At issue in this case is the standard of proof
necessary to establish a patent’s invalidity under 35
U.S.C. § 112. Under this Court’s precedent, invalidity
of a patent claim must be established by clear-andconvincing evidence. In the present case, however, the
Federal Circuit has allowed the Respondents to
invalidate the claims of two patents based merely on
mistaken notions of the art at the time of the
invention—without any evidence that members of the
class of nucleic acid probes claimed by the patents
would fail to exhibit the intended functionality. In so
doing, the Federal Circuit’s precedential opinion has
lowered the standard of proof to merely require
evidence that skilled artisans doubted the invention.
I.

Background
A. Nucleic Acid Hybridization

Deoxyribonucleic acid (DNA) and ribonucleic acid
(RNA) are nucleic acids, which are comprised of linked
chains of nucleotides. Each nucleotide comprises three
parts: sugar, phosphate, and nitrogenous base. The
conventional nitrogenous bases in DNA are adenine,
guanine, cytosine, and thymine; in RNA, the
conventional bases are the same with the substitution
of uracil for thymine.
The nitrogenous bases of DNA and RNA bind
through non-covalent interactions in specific pairings
known as “Watson-Crick base pairs.” Adenine pairs
with—or is said to be complementary to—thymine or
uracil; guanine pairs with, or is complementary to,
cytosine. Two linked chains of nucleotides pair—or
hybridize—if the arrangement of nucleotides in each
4

strand results in sufficient Watson-Crick pairing of
the bases.
Nucleic acid hybridization enables scientists to
detect certain DNA or RNA sequences of interest.
Scientists can create a labeled oligonucleotide or
polynucleotide—i.e., a linked chain of nucleotides—
that contains a sufficiently complementary sequence
of bases to pair with, or hybridize to, the nucleic acid
of interest. The label, such as a fluorescent molecule
that emits a colored light, can be detected when the
oligonucleotide or polynucleotide hybridizes to a DNA
or RNA of interest, confirming the presence of the
sequence of interest. A labeled oligonucleotide or
polynucleotide that is both hybridizable and
detectable is called a probe.
B. The State Of The Art Before June 1982
Prior to the 1982 priority date of the ’180 and ’405
patents, nucleic acid hybridization was, in many
aspects, well understood. The structure of DNA and
RNA, the hybridization of nucleic acids via WatsonCrick base pairing, and creating and using
polynucleotide probes through radioactive labeling
were well developed within the field. Radioactive
labeling, however, involved replacing certain atoms in
the nucleotide sequence with radioactive isotopes and,
therefore, bore significant safety risks and costs,
engendering a need for non-radioactive methods.
The construction and use of non-radioactive
probes was a nascent field. In 1981, Dr. David Ward
demonstrated that non-radioactive labels could be
attached at specific base moieties (known as “Ward
positions”) to create probes. The prevailing—and
5

mistaken—perception in the art, however, was that
attaching non-radioactive labels anywhere on a
nucleic acid other than a Ward position would
compromise the hybridizability or detectability of the
intended probe.
Despite this misperception, skilled artisans of the
time understood a great deal of the science underlying
probes labeled non-radioactively at non-Ward
positions. For example, skilled artisans understood
how to construct a nucleic acid sufficiently
complementary to a target sequence and how to detect
various labels, such as detecting specific wavelengths
of light to locate a fluorescent label. Skilled artisans
also understood the chemistry—such as carbodiimide,
periodate oxidation, and alkylation chemistries—to
attach non-radioactive labels at non-Ward positions.
In other words, by June 1982, skilled artisans
could have created a non-radioactively, non-Ward
labeled probe and confirmed its functionality—if the
prevailing perception against its functionality had not
dissuaded them from so doing. The inventors of the
’180 and ’405 patents had the insight to see past that
mistaken perception.
C. The Inventions Of The ’180 And ’405
Patents
Against the prevailing dogma of the field,
scientists at Enzo conceived of making and using
probes labeled at phosphate and sugar moieties and
non-Ward positions of the base. The team conceived
that even polynucleotides labeled non-radioactively
at non-Ward positions can be sufficiently
complementary to hybridize and function as
detectable probes. That insight led to the patents.
6

The ’180 and ’405 patent specifications are, in
relevant part, identical. App. 4a. They identify the
structure of labeled nucleotides, as in “SIG-PM-SMBASE” or “PM-SM-BASE-Sig,” where SIG is a
signaling moiety, PM is a phosphate moiety, SM is a
sugar moiety, and BASE is a base moiety. The
specifications further explain that the inventions “are
useful for the tagging or labeling of DNA in a nondisruptive manner” and that a major utility of such
inventive polynucleotides is as “DNA or RNA probes”
that “contain one or more of the special Sig-containing
nucleotides.”
The asserted claims of the ’180 patent describe
phosphate-labeled probes—polynucleotides labeled at
the phosphate molecule that hybridize with
complementary nucleic acids and are detectable. The
invention of the ’180 patent is not directed to a specific
polynucleotide nor to a specific label nor method nor
location of labeling. The inventive insight of the ’180
patent was that polynucleotides with labels attached
to a phosphate would—contrary to mistaken notions
in the art at the time—function as a probe, i.e.,
hybridize and be detectable.
Claim 1, an independent claim from which
asserted claims depend, is exemplary:
1. An oligo- or polynucleotide which is
complementary to a nucleic acid of interest or
a portion thereof, said oligo- or polynucleotide
comprising at least one modified nucleotide or
modified nucleotide analog having the
formula:
Sig-PM-SM-BASE
7

wherein PM is a phosphate moiety, SM is a
furanosyl moiety and BASE is a base moiety
comprising a pyrimidine, a pyrimidine analog,
a purine, a purine analog, a deazapurine or a
deazapurine analog wherein said analog can
be attached to or coupled to or incorporated
into DNA or RNA wherein said analog does
not substantially interfere with double helix
formation or nucleic acid hybridization, said
PM being attached to SM, said BASE being
attached to SM and said Sig being covalently
attached to PM directly or through a nonnucleotidyl chemical linkage, and wherein
said Sig comprises a non-polypeptide, nonnucleotidyl, non-radioactive label moiety
which can be directly or indirectly detected
when attached to PM or when said modified
nucleotide is incorporated into said oligo- or
polynucleotide or when said oligo- or
polynucleotide is hybridized to said
complementary nucleic acid of interest or a
portion thereof, and wherein Sig comprises
biotin, iminobiotin, an electron dense
component, a magnetic component, a metalcontaining
component,
a
fluorescent
component, a chemiluminescent component, a
chromogenic component, a hapten or a
combination of any of the foregoing.
The asserted claims of the ’405 patent describe
two types of hybridization: in situ and liquid phase
hybridization. Like the invention of the ’180 patent,
the ’405 patent is directed to methods of using
polynucleotides that skilled artisans of the time
possessed the technical skills to employ, yet never did
8

so before the critical insight claimed in the patent:
that the claimed polynucleotides would work in the
claimed hybridization processes.
The in situ hybridization claims are directed to
using a probe labeled at non-Ward positions for in situ
hybridization
to
identify
and
enumerate
chromosomes. Independent claim 64 is exemplary.
The liquid phase hybridization claims of the ’405
patent describe using a non-radioactively labeled
polynucleotide as a probe in a novel process involving
hybridization and detection in a liquid medium. All
asserted liquid phase hybridization claims depend
from independent claim 189.
The specifications of both patents disclose
numerous examples of labels, linkages, and
chemistries to create the claimed probes and
hybridization
methods.
For
example,
the
specifications disclose labels comprising biotin,
iminobiotin, fluorescein, rhodamine, dansyl, haptens,
chromogenic compounds, iron oxide (magnetic),
ferritin (electron dense), and cobalt (metal
component). The specifications also provide examples
of chemical linkages, such as poly-L-lysine, 1,6diaminohexane, linkages comprising CH2NH, and
“olefin linkage arms.”
The inventors also provided examples of applying
known chemistry to create the claimed probes.
Example V discloses creating phosphate-labeled
polynucleotides for hybridization and detection by
using
carbodiimide
chemistry
to
couple
polybiotinylated
poly-L-lysine
or
biotinyl-1,6diaminohexane
to
phosphate
moieties
in
polynucleotides—both at the ends of the molecule and
9

internally. The specifications further disclose
attaching a label to numerous other non-Ward
positions on base moieties—e.g., the N3 position of a
pyrimidine; the C2, N3, and N7 positions of a purine;
and the N4 position of a cytosine using alkylation
chemistry—and that such labels are detectable when
the probes are hybridized. And the specifications
disclose using vicinal oxidation by periodate to attach
biotin to a polynucleotide, which results in the biotin
being attached to a sugar analog at the 3’ end of a
polynucleotide.
Thus, although the specific choices of nucleic acid
sequence, label, linker, and nucleotides to be labeled
were considered implementation details of the
inventions, the ’180 and ’405 patents disclosed
examples of each.
II. Prior Proceedings
A. District Court
This petition arises from four separate suits filed
in the United States District Court for the District of
Delaware. Enzo filed separate complaints against
Roche—i.e., Roche Molecular Systems, Inc., Roche
Diagnostics Corp., Roche Diagnostics Operations,
Inc., and Roche Nimblegen, Inc.—and BD—i.e.,
Becton Dickinson and Company, Becton Dickinson
Diagnostics Inc., and Geneohm Sciences, Inc.—for
infringement of the ’180 patent on January 30 and
March 6, 2012, respectively. And Enzo filed separate
complaints against Abbott—i.e., Abbott Laboratories
and Abbott Molecular, Inc.—for infringement of the
’180 and ’405 patents on March 6, 2012, and February
11, 2013, respectively. The district court had
jurisdiction over these actions pursuant to 28 U.S.C.
10

§§ 1331 and 1338(a).
On June 28, 2017, the district court ruled on two
motions for summary judgment of invalidity of the
’180 patent in the suits against Roche and BD: the
court denied summary judgment regarding written
description based on genuine disputes of material fact,
but granted summary judgment that the asserted
claims of the ’180 patent are invalid as non-enabled
under 35 U.S.C. § 112. App. 44a–66a.
Enzo agreed that the district court’s enablement
ruling on the ’180 patent would be deemed to apply to
the claims asserted against Abbott. On August 15,
2017, the district court denied a motion for summary
judgment of invalidity of the ’405 patent based on
written description, but the district court granted
summary judgment for Abbott that the asserted
claims of the ’405 patent are invalid as non-enabled
under 35 U.S.C. § 112. App. 19a–43a.
The district court entered final judgment of
invalidity in all suits.
B. Federal Circuit
Enzo timely appealed those judgments to the
Federal Circuit, which consolidated those appeals. As
phrased by the Federal Circuit, the relevant issue on
appeal was “whether [the specification] enables the
creation of a labeled probe that is both hybridizable
and detectable upon hybridization.” App. 10a. The
circuit court assumed that “the specification teaches
one of skill in the art how to create the broad range of
labeled polynucleotides covered by the claims,” but the
court concluded that “the specification fails to teach
one of skill in the art which combinations will produce
11

a polynucleotide that is hybridizable and detectable
upon hybridization.” Id.
Citing Wyeth & Cordis Corp. v. Abbott
Laboratories, 720 F.3d 130 (Fed. Cir. 2013) and In re
Wands, 858 F.2d 731 (Fed. Cir. 1988), the Federal
Circuit concluded that one of skill in the art would
need to engage in undue experimentation to identify
probes that possessed the desired functionality—i.e.,
were both hybridizable and detectable upon
hybridization. App. 11a-18a. The keystone of the
Federal Circuit decision was its finding of high
unpredictability in the art—a finding based upon
testimony that one skilled in the art would not have
believed, at the time, that the probes taught by the
patents would be hybridizable or detectable as probes.
App. 15a–16a. That belief, however, was mistaken
and, without any evidence of inoperable probes within
the claimed class, that belief was immaterial to
whether particular probes would hybridize or be
detectable. That belief was inconclusive as to the
amount of experimentation necessary to practice the
claims.
The circuit court affirmed the district court’s
summary judgment that the ’180 and ’405 patents
were not enabled, and the court denied Enzo’s timely
petition for a panel rehearing or rehearing en banc.
App. 67a–69a.

12

REASONS FOR GRANTING THE PETITION
I. The Federal Circuit’s Invalidation Of The
Patents Without Evidence Of Inoperable
Members Of The Claimed Classes
Undermines The Statutory Burden And
Standard Of Proof For Challenges To Patent
Validity.
A. To Show That A Patent Is Invalid, A
Challenger Must Meet A Clear And
Convincing Standard Of Proof.
A patent, once issued by the USPTO, “shall be
presumed valid,” and “[t]he burden of establishing
invalidity of a patent or any claim thereof shall rest
on the party asserting such invalidity.” 35 U.S.C.
§ 282. “Thus, by its express terms, § 282 establishes a
presumption of patent validity, and it provides that a
challenger must overcome that presumption to prevail
on an invalidity defense.” Microsoft Corp. v. i4i Ltd.,
564 U.S. 91, 100 (2011).
Although the statute “includes no express
articulation of the standard of proof” the party
asserting invalidity must meet, both this Court and
the Federal Circuit have concluded that § 282
establishes “‘a heavy burden of persuasion,’ requiring
proof of the defense by clear and convincing evidence.”
Id. at 100, 102; see also, e.g., Atlas Powder Co. v. E.I.
du Pont De Nemours & Co., 750 F.2d 1569, 1573 (Fed.
Cir. 1984) (“Under 35 U.S.C. § 282, a patent is
presumed valid, and the one attacking validity has the
burden of proving invalidity by clear and convincing
evidence.”). In Microsoft Corp. v. i4i Ltd., this Court
rejected a challenge to the clear and convincing
standard of proof required by § 282, noting that
13

“[f]or nearly 30 years, the Federal Circuit has
interpreted § 282 as we do today. During this
period, Congress has often amended § 282,
see, e.g., Pub. L. 104–141, § 2, 109 Stat. 352;
Pub. L. 98–417, § 203, 98 Stat. 1603; not once,
so far as we . . . are aware, has it even
considered a proposal to lower the standard of
proof. . . . Indeed, Congress has left the
Federal Circuit’s interpretation of § 282 in
place despite ongoing criticism, both from
within the Federal Government and without.”
564 U.S. at 113.
Since this Court’s 2011 decision in Microsoft
Corp., the Federal Circuit has continued to apply the
clear and convincing standard to invalidity
challenges—including those brought under the
enablement requirement of 35 U.S.C. § 112. See, e.g.,
Allergan, Inc. v. Sandoz Inc., 796 F.3d 1293, 1303
(Fed. Cir. 2015) (“[P]atents are presumed to be valid
and overcoming that presumption requires clear and
convincing evidence.”) (citing 35 U.S.C. §
282; Microsoft Corp., 564 U.S. at 113); Alcon Research
Ltd. v. Barr Labs., Inc., 745 F.3d 1180, 1188 (Fed. Cir.
2014) (“[P]atents are presumed to be valid and
overcoming this presumption requires clear and
convincing evidence.”) (citing 35 U.S.C. §
282; Microsoft Corp., 564 U.S. at 113). The Federal
Circuit purported to apply a clear and convincing
standard of proof to this case as well. See App. 9a.

14

B.

The Federal Circuit Applies An “Undue
Experimentation” Test To Patent
Validity Challenges Under The
Enablement Requirement Of § 112.

Section 112 of the patent statute describes what
must be contained in a patent specification. Among
other requirements, the specification must contain “a
written description of the invention, and of the
manner and process of making and using it . . . [such]
as to enable any person skilled in the art to which it
pertains, . . . to make and use the same.” 35 U.S.C.
§ 112, ¶ 1 (2006). Thus, an applicant must describe
the claimed invention adequately and provide
sufficient description to enable the invention’s
production and use.
Under current Federal Circuit law, a party
challenging a patent’s validity under the enablement
requirement of § 112 “must show by clear and
convincing evidence that a person of ordinary skill in
the art would not be able to practice the claimed
invention without ‘undue experimentation.’” Allergan,
Inc., 796 F.3d at 1309 (quoting In re Wands, 858 F.2d
731, 736–37 (Fed. Cir. 1988)); Alcon Research Ltd.,
745 F.3d at 1188.
For at least fifty years, the Federal Circuit (and
its predecessor) has applied some variant of this
inquiry and, critically, has repeatedly emphasized
that necessary experimentation does not invalidate a
patent unless such experimentation sums to an undue
amount. See, e.g., Application of Eltgroth, 419 F.2d
918, 921 (C.C.P.A. 1970) (“[S]ome experimentation,
provided it is not an undue amount, is permissible.”).
“[A] disclosure complies with the how-to-make
15

requirement of 35 U.S.C. § 112 even though ‘some
experimentation, provided it is not an undue amount’
(and provided that it does not require ingenuity
beyond that to be expected of one of ordinary skill in
the art), is still required to adapt the invention to
particular settings.” Fields v. Conover, 443 F.2d 1386,
1390–91 (C.C.P.A. 1971) (internal citations omitted).
“Assuming some experimentation were needed, a
patent is not invalid because of a need for
experimentation. A patent is invalid only when those
skilled in the art are required to engage
in undue experimentation to practice the invention.”
W.L. Gore & Assocs., Inc. v. Garlock, Inc., 721 F.2d
1540, 1557 (Fed. Cir. 1983). “That some
experimentation is necessary does not preclude
enablement; the amount of experimentation, however,
must not be unduly extensive.” Atlas Powder Co., 750
F.2d at 1576.
In short, “[s]ome ‘trial and error’” to practice
claims does not invalidate a patent. W.L. Gore &
Assocs., 721 F.2d at 1557. The standard allows
experimentation to encourage inventors to disclose
their inventions; otherwise, to require a patent with
claims that cover a class or combinations, or other
groups with numerous embodiments, to elucidate
every possible embodiment without imposing any
experimentation on a practitioner would impose a
prohibitive burden of disclosure on inventors and
undermine the inventor’s ability to claim the full scope
of their invention. As the Federal Circuit’s
predecessor noted, “such a requirement would force an
inventor seeking adequate patent protection to carry
out a prohibitive number of actual experiments. This
would tend to discourage inventors from filing patent
16

applications in an unpredictable area since the patent
claims would have to be limited to those embodiments
which are expressly disclosed. A potential infringer
could readily avoid ‘literal’ infringement of such
claims by merely finding another analogous catalyst
complex.” Application of Angstadt, 537 F.2d 498, 502–
03 (C.C.P.A. 1976).
This Court recognized the same considerations
over a century ago in rejecting a challenge to a
patent’s validity on the argument that some testing
would be required to practice the full scope of the
claims:
Equally untenable is the claim that the patent
is invalid for the reason that the evidence
shows that when different ores are treated
preliminary tests must be made to determine
the amount of oil and the extent of agitation
necessary in order to obtain the best results.
Such variation of treatment must be within
the scope of the claims, and the certainty
which the law requires in patents is not
greater than is reasonable, having regard to
their subject matter. The composition of ores
varies infinitely, each one presenting its
special problem, and it is obviously impossible
to specify in a patent the precise treatment
which would be most successful and
economical in each case. The process is one for
dealing with a large class of substances and
the range of treatment within the terms of the
claims, while leaving something to the skill of
persons applying the invention, is clearly
sufficiently definite to guide those skilled in
17

the art to its successful application, as the
evidence abundantly shows. This satisfies the
law.
Minerals Separation v. Hyde, 242 U.S. 261, 270–71
(1916).1 It is to this Court’s reasoning in Minerals
Separation v. Hyde that Federal Circuit decisions
allowing some, but not undue, experimentation may
be traced. See, e.g., In re Wands, 858 F.2d at 737 n.19
(citing Minerals Separation, 242 U.S. at 270–71); W.L.
Gore & Assocs., Inc., 721 F.2d at 1557 (citing Minerals
Separation, 242 U.S. at 270–71).
Thus, under this Court’s and the Federal Circuit’s
longstanding precedent, an issued patent cannot be
found invalid without a showing—by clear and
convincing evidence—that any experimentation
necessary to practice the invention constitutes an
undue amount.
C. The Federal Circuit Applies An EightFactor Factual Test To Evaluate The
Degree Of Experimentation.
As to determining what constitutes an “undue
amount,” since 1988, the Federal Circuit has applied
a multi-factor test “in determining whether a
disclosure would require undue experimentation.” In
re Wands, 858 F.2d at 737. “After the challenger has
put forward evidence that some experimentation is
needed to practice the patented claim, the factors set
This Court’s precedent prior to Hyde required patents to
sufficiently disclose claimed inventions such that skilled artisans
were not forced to experiment to practice the claims. See, e.g.,
Consol. Elec. Light Co. v. McKeesport Light Co., 159 U.S. 465, 475
(1895); Howard v. Detroit Stove Works, 150 U.S. 164, 167 (1893);
Bene v. Jeantet, 129 U.S. 683, 685–86 (1889).
1

18

forth in Wands then provide the factual
considerations that a court may consider when
determining whether the amount of that
experimentation is either ‘undue’ or sufficiently
routine such that an ordinarily skilled artisan would
reasonably be expected to carry it out.” Alcon Research
Ltd., 745 F.3d at 1188.
The eight factors are “(1) the quantity of
experimentation necessary, (2) the amount of
direction or guidance presented, (3) the presence or
absence of working examples, (4) the nature of the
invention, (5) the state of the prior art, (6) the relative
skill of those in the art, (7) the predictability or
unpredictability of the art, and (8) the breadth of the
claims.” In re Wands, 858 F.2d at 737. “Enablement is
a question of law based on underlying facts.” Wyeth &
Cordis Corp. v. Abbott Labs., 720 F.3d 1380, 1384
(Fed. Cir. 2013).
D. In The Present Case, The Predictability
Of The Art Controlled The Federal
Circuit’s Analysis Of The Wands Factors,
Despite A Lack Of Evidence Of
Inoperable Embodiments Within The
Claimed Class.
In the present case, the Federal Circuit, reviewing
the district court’s summary judgment decisions de
novo, App. 8a–9a, applied the Wands factors and
found undue experimentation necessary to practice
the full scope of the asserted claims of both patents.
App. 10a–18a. The circuit panel did not, however,
consider all of the Wands factors; its opinion, which

19

focused on the ’180 patent,2 discusses only four: the
guidance and examples disclosed by the patent; the
skill of those in the art; the breadth of the claims;
and—the lynchpin of its analysis—the predictability
of the art. Id.
It is plain from the refrains throughout the panel’s
opinion that finding the art unpredictable determined
the panel’s finding on the three additional Wands
factors discussed. “Given the unpredictability of the
art at the time,” the circuit court found the guidance
in the specification to be insufficient. App. 12a–13a.
“[I]n light of the unpredictability in the art,” the
circuit court also found Example V to be an
insufficient working example. App. 13a–15a. “Given
such unpredictability in the art,” the court further
found the breadth of the claims “particularly
concerning.” App. 16a–17a. The predictability of the
art controlled the decision. This matters.
The finding of unpredictability in the art hung on
scant evidence. The ’180 patent claims phosphatelabeled polynucleotides that function as probes—i.e.,
are hybridizable and detectable. The evidence of
unpredictability in the art cited by the Federal Circuit
merely demonstrates a disbelief of the claimed
invention as a whole. It does not demonstrate a
The substantive analysis of the Federal Circuit’s opinion
focuses upon the ’180 patent. See App. 9a–18a. Upon finding the
asserted claims of the ’180 patent non-enabled, the circuit court
summarily extended its reasoning to the asserted claims of the
’405 patent on the rational that “[t]hose claims are broader than
the asserted claims of the ’180 patent.” App. at 18a. Accordingly,
the discussions of the Federal Circuit’s reasoning throughout
this petition are also focused upon the ’180 patent but warrant
reversal of the Federal Circuit’s decision as to both patents.
2

20

persistent inability of skilled artisans to distinguish
between operable or inoperable embodiments within
the claimed class. Indeed, it does not demonstrate
anything whatsoever about the frequency—or even
existence—of inoperable embodiments. Skilled
artisans simply did not believe that phosphate-labeled
polynucleotides would function as probes.
The Federal Circuit judgment rests on a few
snippets of testimony of two Enzo experts and one
inventor. Dr. Backman testified that “it was
commonly thought” that labels at non-Ward positions
“would interfere with or disrupt the hybridization
process.” App. 16a. This testimony does not indicate
whether labels at non-Ward positions would, in fact,
interfere with hybridization. The panel also cited coinventor Dr. Rabbani’s testimony that the inventors’
more aggressive modification of the nucleic acid was
considered “breaking the dogma.” App. 15a–16a. And
Dr. Sherman testified that skilled artisans “would
have been dissuaded” from testing or using nonWard–labeled polynucleotides and would have had to
test a non-Ward–labeled probe—not “to predict
whether it would actually hybridize” insofar as testing
the functionality of each particular probe, but to
“assure against the prevailing wisdom that [the
invention] could work.” App. 16a.
None of that testimony indicates how much
experimentation would be necessary to change the
mistaken perception that the invention would not
function as claimed. That disbelief may have been
resolved by a single, “aha!” experiment.
Nor does that testimony indicate whether skilled
artisans—once dispelled of the mistaken belief that
21

phosphate-labeled
polynucleotides
would
not
hybridize and be detectable—would be able to
distinguish between those polynucleotides that would
or would not function as probes. Critically, the
defendants below presented no evidence of inoperable
members within the claimed class. Although the
Federal Circuit notes that the claims may encompass
“tens of thousands” of possible embodiments, App.
17a, nowhere does the circuit opinion address whether
even one of those thousands would fail to function as
claimed.
Without evidence of inoperable embodiments
within the class of phosphate-labeled probes claimed
by the ’180 patent, it is as likely that all claimed
phosphate-labeled polynucleotides would hybridize
and be detectable as it is that only some would exhibit
the intended functionality. Without evidence favoring
either scenario, the line between routine and undue
experimentation cannot be drawn.
Nonetheless, the Federal Circuit incorrectly or
erroneously assumed that some embodiments would
not function as desired and, therefore, found the
asserted claims of both the ’180 and ’405 patents
invalid: “[E]ven if Example V describes one working
embodiment with the claimed functionality, undue
experimentation would still be required with regard
to the many other embodiments of the claims based on
the number of possible embodiments and the
unpredictability in the art.” App. 17a–18a.

22

E. The Federal Circuit’s Invalidation Of
Patent Claims Without Evidence Of
Inoperable Embodiments In The
Claimed Class Warrants Review And
Reversal.
The Federal Circuit’s precedential decision in this
case impermissibly lowers the clear and convincing
standard of proof for challengers seeking to invalidate
patents under 35 U.S.C. § 112 and impermissibly
shifts the burden to the patent owner to prove patent
claims are enabled, and therefore valid, in violation of
the presumption of validity and assignment of the
burden of proof under 35 U.S.C. § 282.
Prior to its decision in this case, the Federal
Circuit found claims covering a broad class invalid
under § 112 due to unpredictability of the art only
upon a showing that some members of the broad class
would not exhibit the claimed functionality. For
example, in Wyeth & Cordis Corp. v. Abbott
Laboratories, upon which the circuit panel in this case
relied, the Federal Circuit found claims covering a
class of compounds with immunosuppressive and
antirestinosis effects invalid due to the large number
of possible embodiments and unpredictability of the
art. 720 F.3d at 1382–83, 1385–86. But, unlike the
present case, the patent challenger had offered
testimony from the patent owner that “even minor
alterations to the . . . molecule could impact its
immunosuppressive and antirestinotic properties.” Id.
at 1384–85. In other words, rather than evidence that
skilled artisans did not believe in the claimed
invention, the challenger showed that not all
members of the class would exhibit the claimed
functionality: “you really can’t tell whether they work”
23

without “first synthesiz[ing] and then screen[ing] each
compound.” Id. at 1385. Because not all members
functioned as claimed, that experimentation would
necessarily continue for every member of the class.
By contrast, in Alcon Research Ltd. v. Barr
Laboratories, Inc., the Federal Circuit rejected a
challenge to broad claims. The district court had held
the claims invalid under In re Wands upon finding
that the claims were too broad and the art too
unpredictable. 745 F.3d at 1185. The evidence
included testimony that “many ‘variables’ . . .
including
pH,
buffer,
buffer
concentration,
preservatives, chelating agents, and other excipients
may affect the chemical stability” and testimony that
“when ‘you have a lot of variables on top of one
another, the experimentation gets out of control
quickly.’” Id. at 1189 (emphasis in original). The
Federal Circuit, however, reversed because no
evidence demonstrated whether “changing any of the
‘variables’ . . . would render Alcon’s claimed invention
inoperable.” Id. Without such evidence, conclusions
about the predictability of the art were
unsubstantiated and “not sufficient” to show “any
experimentation, let alone undue experimentation.”
Id. at 1189–90.
More recently, the Federal Circuit decided Idenix
Pharmaceuticals LLC v. Gilead Sciences, Inc. on
similar grounds as in Wyeth. 941 F.3d 1149 (Fed. Cir.
2019). The asserted patent claimed methods for
treating the Hepatitis C virus (“HVC”). Id. at 1154–
55. In evaluating the evidence under the Wands
factors, the Federal Circuit found the number of
compounds encompassed by the claims to number “at
24

least many, many thousands.” Id. at 1157. And the
court found the art highly unpredictable, both because
the field was “in its infancy”—similar to the present
case—and due to testimony that “not all 2’ methyl up
ribonucleosides will be effective to treat HCV”—
evidence lacking in the present case—and “you don’t
know whether or not a nucleoside will have activity
against HCV until you make and test it.” Id. at 1159,
1161.
In sum, under these Federal Circuit decisions, a
patent challenger must show that not all
embodiments within a class exhibit the claimed
functionality. Such evidence, combined with evidence
of a broad class covered by the claims, could support a
conclusion of undue experimentation under the
Wands factors and, in turn, support a judgment of
patent invalidity under § 112.
The precedential decision in the present case,
however, lowers the evidentiary burden. Under the
precedent set by this case, a patent challenger need
only demonstrate that the claims cover a large class
and that skilled artisans of the time doubted the
functionality of the invention. Without evidence that
some members of the claimed class would not exhibit
the desired functionality, such doubt fails to
meaningfully inform any analysis of experimentation
necessary to practice a patent. The evidence does not
demonstrate how much experimentation would be
necessary to dispel such doubt. Under this precedent,
any experimentation necessary to dispel doubt and
confirm the functionality of patent claims may be
presumed to be undue experimentation.
Such a result contravenes this Court’s conclusion
25

in Microsoft Corp. v. i4i Ltd. that, under § 282, patent
challengers must meet the “heavy burden of
persuasion” of the “clear and convincing” standard of
proof. 564 U.S. at 100. Allowing a lower standard of
proof to comply—even within the subset of patents
over which this precedential opinion will be
relevant—undermines the quid pro quo of the patent
system. The heightened standard of proof is an
essential component of the patent “bargain” and the
incentives for inventors to disclose their innovations
to the public in exchange for patent protection. See
Bonito Boats, Inc. v. Thunder Craft Boats, Inc., 489
U.S. 141, 150–51 (1989).
Indeed, by allowing patent challengers to
establish undue experimentation based merely on a
mistaken dogma present in the art—without any
evidence of substantial experimentation necessary to
overcome that mistaken belief—the Federal Circuit’s
precedential decision in this case effectively and
improperly shifts the burden onto the patentee to
demonstrate that such disbelief could be dispelled
through routine experimentation. The patentee would
be tasked with proving the operability of every
member of a claimed class, despite an absence of
evidence that a skilled artisan would encounter any
inoperable members of the claimed class, let alone
such a significant number of inoperable members that
the artisan would have had to engage in an unduly
extensive trial-and-error process to practice the
claims. Nearly 150 years of this Court’s precedent
make clear that a patent-holder like Enzo is not
tasked with disproving doubts about the validity of its
duly issued patent: “As early as 1874 [this Court]
explained that the burden of proving [invalidity] ‘rests
26

upon [the defendant], and every reasonable doubt
should be resolved against him.’” Microsoft Corp., 564
U.S. at 105 (quoting Coffin v. Ogden, 85 U.S. 120, 124
(1873)); see also Minerals Separation v. Hyde, 242 U.S.
at 271 (“[I]t is obviously impossible to specify in a
patent the precise treatment which would be most
successful and economical in each case.”). Shifting the
burden, as the Federal Circuit has done in this
precedential case, violates the plain language of § 282
that “[t]he burden of establishing invalidity of a
patent or any claim thereof shall rest on the party
asserting such invalidity.” 35 U.S.C. § 282.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.

Respectfully submitted.
JOHN M. DESMARAIS
JUSTIN P.D. WILCOX,
Counsel of Record
DESMARAIS LLP
230 Park Avenue
New York, NY 10169
(212) 351-3400
jdesmarais@desmaraisllp.com
jwilcox@desmaraisllp.com
PETER C. MAGIC
DESMARAIS LLP
27

101 California Street
San Francisco, CA 94111
(415) 573-1900
pmagic@desmaraisllp.com
Counsel for Petitioner
Enzo Life Sciences, Inc.

28

APPENDIX

1a
Appendix A — Appendix
opinionAof the United
States Court of Appeals for the
Federal Circuit, FILED JUNE 20, 2019
United States Court of Appeals
for the Federal Circuit
ENZO LIFE SCIENCES, INC.,
Plaintiff-Appellant
v.
ROCHE MOLECULAR SYSTEMS, INC., ROCHE
DIAGNOSTICS CORPORATION, ROCHE
DIAGNOSTICS OPERATIONS, INC., ROCHE
NIMBLEGEN, INC., BECTON, DICKINSON
AND COMPANY, AKA BECTON DICKSON AND
COMPANY, BECTON DICKINSON DIAGNOSTICS
INC., AKA BECTON DICKSON DIAGNOSTICS,
GENEOHM SCIENCES INC., ABBOTT
LABORATORIES, ABBOTT MOLECULAR, INC.,
Defendants-Appellees
2017-2498, 2017-2499, 2017-2545, 2017-2546
Appeals from the United States District Court for the
District of Delaware in Nos. 1:12-cv-00106-LPS, 1:12-cv00274-LPS, 1:12-cv-00275-LPS, 1:13-cv-00225-LPS, Chief
Judge Leonard P. Stark.
*This opinion was originally filed under seal and has been
unsealed in full.

2a
Appendix A
June 20, 2019, Sealed Opinion Issued;
July 5, 2019*, Public Opinion Issued
Before PROST, Chief Judge, REYNA and WALLACH,
Circuit Judges.
PROST, Chief Judge.
Enzo Life Sciences, Inc. (“Enzo”) appeals the decision
of the U.S. District Court for the District of Delaware
granting summary judgment against Enzo and holding
that the asserted claims are invalid for lack of enablement.
We affirm as to non-enablement and do not reach the other
issues presented on appeal.
I
Deoxyribonucleic acid (“DNA”) and ribonucleic acid
(“RNA”) are nucleic acids. They are made of a series
of building blocks, called nucleotides, linked together
in a chain. A single nucleotide is made up of a sugar, a
phosphate, and a nitrogenous base. DNA nucleotides have
one of four nitrogenous bases: adenine (A); guanine (G);
cytosine (C); and thymine (T). RNA has the same bases,
except it uses uracil (U) instead of thymine (T).
A polynucleotide refers to multiple nucleotides linked
together in a chain.1 The nucleotides located at each end
of a polynucleotide chain are referred to as terminal
1. An oligonucleotide is simply a shorter polynucleotide (e.g.,
just a few nucleotides in length).

3a
Appendix A
nucleotides. All other nucleotides in a polynucleotide chain
are referred to as internal nucleotides.
Two strands of polynucleotides can pair with each
other, i.e., hybridize, through hydrogen bonding between
the bases on each polynucleotide strand. The bases T and
U pair with A, while G pairs with C. This is referred to
as complementary base pairing or “Watson-Crick base
pairing,” and this pairing is how the now-familiar double
helix shape is formed. Two polynucleotide strands will
hybridize if the arrangement of nucleotides in each strand
is such that enough bases can pair with each other. For
example, whether two strands will hybridize depends in
part on the number of complementary base pairs that
exist between the two polynucleotides.
Hybridization techniques are used to detect the
presence of certain nucleic acid sequences of interest,
i.e., target sequences, such as genetic alterations. In such
procedures, scientists use a hybridization “probe”—i.e.,
a labeled polynucleotide that is hybridizable and remains
detectable after hybridization occurs—that is sufficiently
complementary to the target sequence. The probe will
hybridize with the target sequence if the target sequence
is present, and the label on the probe then allows scientists
to detect the hybridized probe.
Nucleic acid hybridization was well understood by
June 1982, which is the claimed priority date of the
patents at issue in this appeal. The prevailing method of
labeling probes at that time was via radioactive labeling.
Radioactive labeling generally involved replacing certain

4a
Appendix A
atoms in the nucleotide sequence with corresponding
radioactive isotopes.
Non-radioactive labeling was just developing at the
time of the claimed inventions. In 1981, Dr. David Ward
and others at Yale University successfully developed
a nonradioactive probe by attaching a label to a
polynucleotide via a chemical linker at a base position of
a nucleotide. See J.A. 4129-33 (publication by Dr. Ward
and others titled “Enzymatic synthesis of biotin-labeled
polynucleotides: Novel nucleic acid affinity probes”).
Dr. Ward demonstrated that attaching labels at certain
positions of the nucleotide (“the Ward positions”) would
not disrupt the polynucleotide’s ability to hybridize and
be detected upon hybridization.
In December 1981, Enzo licensed the exclusive rights
to the patent portfolio covering Dr. Ward’s discovery. See
J.A. 4258-75. Shortly thereafter, in June 1982, Enzo filed
a patent application covering non-radioactive labeling at
additional positions on a nucleotide. The two patents in
this appeal issued from applications filed in 1995 that claim
priority from this 1982 application.
Both patents in this appeal generally relate to the use
of non-radioactively labeled polynucleotides in nucleic acid
hybridization and detection applications. The patents share
the same specification in relevant part. See J.A. 90 n.6.
A
U.S. Patent No. 6,992,180 (“the ’180 patent”) relates
to non-radioactive labeling of polynucleotides where the

5a
Appendix A
label is attached at the phosphate position of a nucleotide.
The claims are not directed to any specific polynucleotide,
nor do they focus on the chemistry or linker used to attach
a label, the number of labels to attach to a polynucleotide,
or where within the polynucleotide to attach those labels.
Instead, the claims encompass all polynucleotides with
labels attached to a phosphate, as long as the polynucleotide
remains hybridizable and detectable upon hybridization.
Claim 1 of the ’180 patent is representative:
1. A n oligo - or poly nucleotide which is
complementary to a nucleic acid of interest or
a portion thereof, said oligo- or polynucleotide
comprising at least one modified nucleotide or
modified nucleotide analog having the formula
Sig-PM-SM-BASE
wherein PM is a phosphate moiety, SM is a
furanosyl moiety and BASE is a base moiety
comprising a pyrimidine, a pyrimidine analog,
a purine, a purine analog, a deazapurine or a
deazapurine analog wherein said analog can
be attached to or coupled to or incorporated
into DNA or RNA wherein said analog does
not substantially interfere with double helix
formation or nucleic acid hybridization,
said PM being attached to SM, said BASE
being attached to SM, and said Sig being
covalently attached to PM directly or through
a non-nucleotidyl chemical linkage, and
wherein said Sig comprises a non-polypeptide,
non-nucleot idyl, non-radioactive label

6a
Appendix A
moiety which can be directly or indirectly
detected when attached to PM or when
said modified nucleotide is incorporated
into said oligo- or polynucleotide or when
said oligo- or polynucleotide is hybridized
to said complementary nucleic acid of
interest or a portion thereof, and wherein Sig
comprises biotin, iminobiotin, an electron dense
component, a magnetic component, a metalcontaining component, a fluorescent component,
a chemiluminescent component, a chromogenic
component, a hapten or a combination of any of
the foregoing.
’180 patent claim 1 (emphases added).
“Sig” represents a signaling moiety (i.e., a label); PM
represents a phosphate moiety; SM represents a sugar
moiety; and BASE represents a base moiety.
B
The asserted claims of U.S. Patent No. 8,097,405
(“the ’405 patent”) fall into two categories: (1) in situ
hybridization claims; and (2) liquid phase hybridization
claims.
The in situ hybridization claims (claims 63, 64, 65, 95,
103, 128, and 144) describe a process that uses a probe nonradioactively labeled at any non-Ward position to identify
chromosomes. In situ hybridization is where probes are
hybridized to a target that is fixed, usually on a glass slide.
Claim 64 is exemplary.

7a
Appendix A
The liquid phase hybridization claims (claims 196
and 198) describe a process that uses a non-radioactively
labeled probe to hybridize and detect a target sequence
in a liquid medium, rather than on a glass slide. These
claims cover using probes labeled non-radioactively at
any position on the nucleotide, including the three Ward
positions. The asserted liquid phase hybridization claims
depend from claim 189.
C
This consolidated appeal involves four district court
cases. 2 The ’180 patent is at issue in all four cases, while
the ’405 patent is at issue only in the cases against Abbott.
In January 2012, Enzo filed suit against Roche
Molecular Systems, Inc., Roche Diagnostics Corp., Roche
Diagnostics Operations, Inc., and Roche Nimblegen, Inc.
(collectively, “Roche”) alleging infringement of the ’180
patent. J.A. 1212-16 (Compl.) (Case No. 1:12-cv-106). In
March 2012, Enzo filed separate suits against Becton,
Dickinson and Co., Becton Dickinson Diagnostics Inc., and
GeneOhm Sciences, Inc. (collectively, “BD”); and Abbott
Laboratories and Abbott Molecular, Inc. (collectively,
“Abbott”) alleging infringement of the ’180 patent. J.A.
2833-36 (Compl.) (Case No. 1:12-cv-275 against BD); J.A.
1964-67 (Compl.) (Case No. 1:12-cv-274 against Abbott).
In February 2013, Enzo filed a second suit against Abbott
alleging infringement of the ’405 patent. J.A. 3973-77
(Compl.) (Case No. 1:13-cv-225).
2. Appeal Nos. 17-2354 and 17-2355 were dismissed by
agreement of the parties in those appeals. ECF No. 98.

8a
Appendix A
In June 2017, in the cases against Roche and BD, the
district court denied summary judgment with respect to
written description, but granted summary judgment in
favor of the defendants, holding that all asserted claims of
the ’180 patent were invalid as not enabled. See J.A. 59-77,
99-117. The district court entered partial final judgment
of invalidity pursuant to Federal Rule of Civil Procedure
54(b) with respect to the claims of the ’180 patent in the
cases against BD and Roche. J.A. 14-18 (BD), 5-9 (Roche).
In the two Abbott cases, Enzo agreed that the district
court’s earlier enablement ruling as to the ’180 patent
would be deemed to apply to the claims of that patent
asserted against Abbott. J.A. 23, 14950-51. As to the ’405
patent, in August 2017, the district court denied Abbott’s
motion as to written description but granted summary
judgment in favor of Abbott, holding the claims invalid for
lack of enablement. J.A. 78-98. The district court entered
final judgment of invalidity of all asserted claims of the
’180 and ’405 patents on September 1, 2017. J.A. 10-13,
23-26.
Enzo timely appealed each judgment. This court
consolidated the appeals. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
II
In reviewing a grant of summary judgment, we apply
the law of the regional circuit. Vasudevan Software, Inc. v.
MicroStrategy, Inc., 782 F.3d 671, 676 (Fed. Cir. 2015). The
Third Circuit reviews a district court’s grant of summary

9a
Appendix A
judgment de novo. Melrose, Inc. v. City of Pittsburgh,
613 F.3d 380, 387 (3d Cir. 2010). “Summary judgment is
appropriate only where, drawing all reasonable inferences
in favor of the nonmoving party, there is no genuine
issue as to any material fact and . . . the moving party
is entitled to judgment as a matter of law.” Id. (quoting
Ruehl v. Viacom, Inc., 500 F.3d 375, 380 n.6 (3d Cir. 2007)).
“[U]nless there is sufficient evidence favoring the
nonmoving party for a jury to return a verdict for that
party,” there is no need for a trial, and summary judgment
is appropriate. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 249, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986).
III
The enablement requirement asks whether “the
specification teach[es] those in the art to make and use
the invention without undue experimentation.” In re
Wands, 858 F.2d 731, 737 (Fed. Cir. 1988). To satisfy this
requirement, “[t]he specification must contain sufficient
disclosure to enable an ordinarily skilled artisan to
make and use the entire scope of the claimed invention
at the time of filing.” MagSil Corp. v. Hitachi Glob.
Storage Techs., Inc., 687 F.3d 1377, 1381 (Fed. Cir. 2012).
“Enablement is a question of law based on underlying
factual findings.” Id. at 1380.
“To prove that a claim is invalid for lack of enablement,
a challenger must show by clear and convincing evidence
that a person of ordinary skill in the art would not be
able to practice the claimed invention without ‘undue
experimentation.’” Alcon Research Ltd. v. Barr Labs.,

10a
Appendix A
Inc., 745 F.3d 1180, 1188 (Fed. Cir. 2014) (quoting In
re Wands, 858 F.2d at 736-37). 3 In analyzing undue
experimentation, we consider factors such as: “(1) the
quantity of experimentation necessary, (2) the amount
of direction or guidance presented, (3) the presence
or absence of working examples, (4) the nature of the
invention, (5) the state of the prior art, (6) the relative skill
of those in the art, (7) the predictability or unpredictability
of the art, and (8) the breadth of the claims.” In re Wands,
858 F.2d at 737.
In our view, the issue in this appeal is not simply
whether the specification enables labeling; the question
is whether it enables creation of a labeled probe that is
both hybridizable and detectable upon hybridization.
Many of the alleged factual disputes raised by Enzo and
many of the arguments raised by Appellees relate to
the details of creating the labeled polynucleotide. For
example, Roche and BD contend that the specification
fails to sufficiently disclose internal phosphate labeling.
But even if we assume that the specification teaches one
of skill in the art how to create the broad range of labeled
polynucleotides covered by the claims, as explained below,
the specification still fails to teach one of skill in the art
which combinations will produce a polynucleotide that
is hybridizable and detectable upon hybridization, as
required by the claim language.
3. In this case, the parties agree that the relevant person of
ordinary skill in the art is a scientist with a doctorate in chemistry,
biochemistry, biophysics, molecular biology, or a similar field.
Appellant’s Br. 30 (noting the parties’ agreement).

11a
Appendix A
With this focus on the functionality required by
the claims, we agree with Appellees that our decision
in Wyeth and Cordis Corp. v. Abbott Laboratories, 720
F.3d 1380 (Fed. Cir. 2013), controls this case. In Wyeth,
we affirmed a grant of summary judgment and held the
asserted claims invalid for lack of enablement because it
would have required undue experimentation to determine
which compounds in the claimed class would have the
required functionality. Id. at 1385-86. The claims in
Wyeth were construed to require a compound having
certain functionality (e.g., immunosuppressive effects).
Id. at 1383. The claims covered a class of compounds
that met those functional requirements. Id. at 1385. The
patentee’s witnesses testified that minor alterations to the
molecule disclosed in the specification could impact the
required functionality. Id. The patent challengers in that
case thus argued that a person of ordinary skill in the art
would need to screen each compound to determine what
candidates would have the claimed functionality. Id. We
agreed. Id. We noted the breadth of the claims, the limited
guidance provided in the specification, the large number of
possible candidates falling within the claimed genus (tens
of thousands), and the fact that it would be necessary to
first synthesize and then screen each of those candidates
to determine whether it had the required functionality.
Id. We further noted that one of the patentee’s scientists
had confirmed the unpredictability in the art by testifying
that one would need to test each compound to understand
whether it would have the desired functionality. Id. We
thus concluded that there was no genuine dispute that
practicing the full scope of the claims would require undue
experimentation. Id.

12a
Appendix A
The facts in this appeal largely mirror those in Wyeth.
As in Wyeth, the asserted claims here require not just a
particular structure, but a particular functionality (i.e.,
the labeled polynucleotides must be hybridizable and
detectable upon hybridization). As explained below, the
specification fails to teach one of skill in the art whether
the many embodiments of the broad claims would exhibit
that required functionality.
The scope of the claims is quite broad. Claim 1
of the ’180 patent encompasses all phosphate-labeled
polynucleotides that are hybridizable and detectable. The
claim places almost no limitations on the structure of the
claimed polynucleotide, other than the fact that the label
is attached to the phosphate portion of the nucleotide. It
does not restrict the chemistry used to attach the label, the
chemical linker used, the number of labels within a probe,
or the location of the labels on the probe (i.e., whether they
are terminal or internal). As to the type of non-radioactive
label used, the claim provides broad categories, such as
any “electron dense component” or “magnetic component.”
The specification’s guidance as to how such variables
would or would not impact the functionality of the
claimed probes is sparse. For example, Enzo directs our
attention to a sentence in the specification that states
that “[a] particularly important and useful aspect of the
special nucleotides of this invention is the use of such
nucleotides in the preparation of DNA or RNA probes.”
’180 patent col. 54 ll. 18-20; see also id. col. 54 ll. 18-33
(describing generally how a probe works). Enzo’s expert,
Dr. Backman, explained that a skilled artisan would have
understood this reference to using the polynucleotide as

13a
Appendix A
a “probe” as meaning a polynucleotide that is capable of
hybridizing and being detected upon hybridization. J.A.
5840-41 ¶ 57 (Backman Decl.). But at the time of the
invention, the art was highly unpredictable. As Enzo’s
expert explained:
At the time of the inventions of the ’180 patent,
it was commonly thought that the addition of a
non-radioactive label to a nucleic acid sequence
at positions other than a few known as ‘nondisruptive positions’ . . . would interfere with or
disrupt the hybridization process, rendering the
nucleotide ineffective for diagnostic purposes.
J.A. 4728 ¶ 74 (Backman Opening Report).
Given the unpredictability of the art at the time
and the serious doubts held by those of skill in the art
regarding whether labels could be attached to non-Ward
positions without disrupting hybridization, merely stating
that a labeled polynucleotide will work as a probe is not
sufficient to enable one of skill in the art to know that it
would indeed function as a probe—i.e., be hybridizable
and detectable upon hybridization.
Enzo also presents Example V as an example of
an internal phosphate-labeled polynucleotide that is
hybridizable and detectable. Appellant’s Br. 32-33.
Example V states in full:
Biotin and polybiotinylated poly-L-lysine
were coupled to oligoribonucleotides using a

14a
Appendix A
carbodiimide coupling procedure described
by Halbran and Parker, J. Immunol., 96 373
(1966). As an example, DNA (1 ug/ml), 1 ml)
in tris buffer pH 8.2, sheared with 0.1 N
sodium hydroxide was denatured by boiling
for 10 minutes and quick cooling in an ice bath.
Biotinyl-1,6-diaminohexane amide (2 mg, 6
umol) or polybiotinylated poly-L-lysine (2 mg)
and l-ethyl-3-diisopropylaminocarboimide
HCl (10 mg, 64 umol) were added, and the
pH readjusted to 8.2. After 24 hours at room
temperature in the dark, the mixture was
dialyzed against 10 mM tris buffered saline.
DNA was precipitated ethanol.
’180 patent col. 33 ll. 33-44.
Appellees contend that Example V is not a working
example. During prosecution, Enzo admitted that Example
V is a “’paper’, rather than [a] ‘working example[].’” J.A.
4703 (stating in an amendment made during prosecution
that “Applicants have determined that the examples set
forth . . . [except certain examples other than Example V]
are ‘paper’, rather than ‘working examples’”); J.A. 6657
(same). Additionally, Enzo’s expert testified that he was
not aware of Enzo having ever tested a phosphate-labeled
probe for hybridizability and detectability. J.A. 8547-48
p. 84 l. 5-p. 85 l. 16 (Backman deposition); J.A. 8551-52 p.
124 l. 10-p. 125 l. 11 (Backman deposition); see also J.A.
6441 p. 133 ll. 6-15 (Backman deposition) (“Q: . . . is there
any bench experiment disclosed in the ’180 patent in which
the ’180 inventors attempted to determine whether the

15a
Appendix A
product of Example V, that is, the Sig moiety attached to
an oligo- or polynucleotide could be detected after it had
hybridized to a compl[e]mentary nucleic acid of interest?
A. . . . no, they did not do an actual bench experiment to
that effect.”); id. p. 131 ll. 7-19. Regardless, even viewing
Example V as a working example, Example V is insufficient
to enable the breadth of the claims here, especially in light
of the unpredictability in the art.4
The deficiencies in the description as to enablement
cannot be cured in this case by looking to the knowledge
of those skilled in the art at the time of the invention.
Although “a specification need not disclose what is well
known in the art,” that rule is “not a substitute for a basic
enabling disclosure.” Genentech, Inc. v. Novo Nordisk
A/S, 108 F.3d 1361, 1366 (Fed. Cir. 1997). As we have said
before, a patentee “cannot simply rely on the knowledge of
a person of ordinary skill to serve as a substitute for the
missing information in the specification.” ALZA Corp. v.
Andrx Pharms., LLC, 603 F.3d 935, 941 (Fed. Cir. 2010).
And, more importantly, all parties acknowledge that
serious doubts existed in the art as to whether the use
of non-radioactive probes at non-Ward positions would
be useful as probes. For example, an inventor of the ’180
patent who is also Enzo’s CEO explained that, at the time,
it was thought “aggressive chemical modification of nucleic
4. Nothing stated herein would necessarily disallow proper
constructive examples, which are intended to fulfill both written
description and enablement requirements. Atlas Powder Co. v. E.I.
du Pont De Nemours & Co., 750 F.2d 1569, 1577 (Fed. Cir. 1984)
(“Use of prophetic examples, however, does not automatically make
a patent non-enabling.”).

16a
Appendix A
acid would lead to destruction of his [sic] content.” J.A.
6470 p. 1265 l. 5-p. 1266 l. 15 (Dr. Rabbani deposition); see
also J.A. 6465 p. 31 l. 12-p. 33 l. 13 (Dr. Rabbani explaining
how more aggressive modification of the nucleic acid
was considered “breaking the dogma”). Enzo’s expert,
Dr. Backman, also pointed out the view of the art at the
time, stating that “[a]t the time of the inventions of the
’180 patent, it was commonly thought that the addition
of a nonradioactive label to a nucleic acid sequence at
positions other than [the Ward positions at the base] would
interfere with or disrupt the hybridization process.” J.A.
4728 ¶ 74 (Backman’s Opening Report); J.A. 4184 ll. 10-24
(Dr. Rabbani deposition). Indeed, Enzo’s expert explained
that for one of skill in the art to be comfortable that a
particular polynucleotide would work as a probe, “they
would need to actually make the compound and test it in
a hybridization experiment, which they would have been
dissuaded from doing because of Ward.” J.A. 8454 p. 150
ll. 8-15 (Sherman deposition) (discussing a polynucleotide
labeled at the terminal phosphate and using carbodiimide
chemistry and biotin); see also J.A. 8456 ll. 3-11 (Sherman
deposition) (“Q: . . . But if they had been motivated to make
this probe, non-Ward labeled probe, your view is that
they would have to make it and test it in order to predict
whether it would actually hybridize as of June 1982, right?
A: Well, they would have to make it and assure against
the prevailing wisdom that it could work.”); J.A. 8454-55
p. 150 l. 17-p. 151 l. 18 (Sherman deposition).
Given such u npred ict abi l ity i n the a r t , a nd
considering the testimony of Enzo’s expert that each
labeled polynucleotide would need to be tested to

17a
Appendix A
determine whether it is hybridizable and detectable
upon hybridization, the breadth of the claims here is
particularly concerning in the enablement inquiry. See In
re Fisher, 427 F.2d 833, 839, 57 C.C.P.A. 1099 (CCPA 1970)
(“In cases involving unpredictable factors, such as most
chemical reactions and physiological activity, the scope
of enablement obviously varies inversely with the degree
of unpredictability of the factors involved.”). Appellees
contend that millions of embodiments of the claims exist
based on the many variables involved in creating one of
the claimed labeled polynucleotides. Enzo disputes this
number, arguing it is improperly inflated because it counts
every possible polynucleotide sequence that could exist as
a separate embodiment. Even assuming Enzo is correct
that the length and sequence of the polynucleotide do not
give rise to separate embodiments, the other variables
(such as the type of label, the type of linker used to
attach the label, and the location of the labels within the
polynucleotide) still result in an extremely large number
of possible embodiments. Indeed, Enzo’s expert explained
that the number of possible polynucleotides that would fit
within the limitations of claim 1 would be at least “tens of
thousands.” J.A. 6438 p. 120 l. 20-p. 121 l. 11 (Backman
deposition).
In sum, even if Example V describes one working
embodiment with the claimed functionality, undue
experimentation would still be required with regard to
the many other embodiments of the claims based on the
number of possible embodiments and the unpredictability
in the art. See Genentech, 108 F.3d at 1366 (“Patent
protection is granted in return for an enabling disclosure

18a
Appendix A
of an invention, not for vague intimations of general ideas
that may or may not be workable.”).
We conclude by briefly addressing the asserted claims
of the ’405 patent. Those claims are broader than the
asserted claims of the ’180 patent; rather than covering
only phosphate-labeled polynucleotides, they also cover
labeling at other locations on a nucleotide. Like the claims
of the ’180 patent, the asserted claims of the ’405 patent
require the claimed polynucleotides to be hybridizable and
detectable upon hybridization. Because the specification
does not enable the narrower scope of polynucleotides
claimed in the ’180 patent, it also cannot enable the
broader scope of polynucleotides claimed in the ’405
patent. As such, even though the asserted claims of the
’405 patent pertain to certain processes, the claims are
still not enabled for the reasons described with respect
to the ’180 patent.
In sum, viewing the evidence in the light most
favorable to Enzo, we agree with the district court’s grant
of summary judgment.
IV
For the foregoing reasons, we affirm the district
court’s grant of summary judgment that the asserted
claims of the ’180 patent and the ’405 patent are invalid
for lack of enablement.
AFFIRMED

19a
Appendix B
Appendix b — memorandum
opinion of
the united states district court for
the district of delaware,
filed august 15, 2017
in the United States District Court
for the District of Delaware
C.A. No. 12-274-LPS
ENZO LIFE SCIENCES, INC.,
Plaintiff,
v.
ABBOTT LABORATORIES
and ABBOTT MOLECULAR, INC.,
Defendants.
August 15, 2017, Decided;
August 15, 2017, Filed
MEMORANDUM OPINION
STARK, U.S. District Judge:
Pending before the Court are: (i) Defendants Abbott
Laboratories and Abbott Molecular Inc.’s (collectively,
“Abbott” or “Defendants”) Motion for Summary Judgment
of Invalidity of U.S. Patent No. 8,097,405 (the “’405 patent”)
for Failure to Comply with the Written Description

20a
Appendix B
Requirement (D.I. 413 at 6-16), and (ii) Abbott’s Motion
for Summary Judgment of Invalidity of the ’405 Patent
for Nonenablement (D.I. 458). For the reasons set forth
below, the Court will deny Abbott’s motion with respect
to written description and will grant Abbott’s motion with
respect to nonenablement.
I.	BACKGROUND
Plaintiff Enzo Life Sciences, Inc. (“Enzo” or
“Plaintiff”) filed this patent infringement action against
Abbott, alleging infringement of the ’405 patent as well
as U.S. Patent No. 6,992,180 (“the ’180 patent”).
The ’405 patent, which is the subject of the pending
motions, generally pertains to non-radioactive labeling
and “relate[s] to nucleic acid1 detection technology that
relies upon the ability of nucleic acid (DNA or RNA)
strands to hybridize — or bind together.” (D.I. 430 at 7)
(internal quotation marks omitted) While “the prevailing
perception in the art [at the time of the invention] was
that specific base moieties (the so-called ‘Ward’ positions)
were the only possible positions for labeling,” the ’405
patent discloses that nucleotides “with non-radioactive
labels attached to certain positions of a nucleotide — the
phosphate moiety, sugar moiety, or non-Ward positions on
the base moiety — could . . . be used as detectable nucleic
acid probes.” (D.I. 423 at 5-6 (emphasis omitted); see also
D.I. 427 at A2130)
1. “Nucleic acids (DNA or RNA) are made up of ‘nucleotide[s],’
each of which ‘typically consists of three parts: a base, a sugar, and
a phosphate.”’ (D.I. 430 at 7) (quoting D.I. 431-2 Ex. 16 at 9)

21a
Appendix B
The ’405 patent was issued on January 17, 2012 and
claims priority to June 23, 1982. (See D.I. 423 at 6) The
asserted claims of the ’405 patent “fall into two categories:
the in situ hybridization claims and the liquid phase
claims.” (D.I. 430 at 8) The in situ hybridization claims —
claims 63, 64, 65, 94, 103, 128, and 144 — “recite processes
for counting or identifying chromosomes through ‘specific
hybridization’ to a ‘locus or loci’ of a chromosome, using
probes labeled at specified positions.” (Id.) The liquid phase
claims — claims 196 and 198 — “specify permissible Sigs
[detectable labels] and detection methods, respectively.” 2
(Id. at 9)
Abbott moved for summary judgment of invalidity of
the ’405 patent for lack of written description on May 12,

2. Claims 94, 103, 128, and 144 depend from independent claims
63, 64, and 65, among other claims. Claims 196 and 198 depend from
independent claims 188 and 189, both of which recite the following
limitations that are pertinent here:
A process for detecting the presence of a nucleic
acid of interest in a sample, comprising: providing
or generating (i) a detectable non-radioactively
labeled oligonucleotide or polynucleotide, . . . and (ii)
a sample that may contain said nucleic acid of interest;
forming in liquid phase, hybrids comprising said
detectable non-radioactively labeled oligonucleotide
or polynucleotide specifically hybridized with said
nucleic acid of interest; and detecting hybrids nonradioactively to detect the presence of said nucleic
acid of interest.
(’405 patent col. 54 ll. 31-67, col. 55 ll. 1-10)

22a
Appendix B
2017 (D.I. 410 at 6-16; D.I. 413 at 6-16), 3 and the parties
completed briefing on July 7, 2017 (D.I. 413, 423, 448).
On June 28, 2017, while summary judgment briefing was
underway, the Court issued a Memorandum Opinion in
a related case, Enzo Life Sciences, Inc. v. Gen-Probe
Inc., C.A. No. 12-104-LPS, granting a defense motion for
summary judgment that the asserted claims of the ’180
patent are invalid for nonenablement. (C.A. No. 12-104LPS D.I. 284) (“Gen-Probe Opinion” or “GP Op.”) On the
same day, the Court issued an oral order in the instant
case, requiring the parties to submit a joint status report
discussing their respective position(s) on how the Court
should proceed with respect to the summary judgment
motions pending here. (D.I. 441)
In their July 10 status report, the parties agreed that
the Gen-Probe Opinion invalidated all of the ’180 patent
claims asserted against Abbott and that all pending
motions pertaining to the ’180 patent were now moot. (See
D.I. 450 at 4-5) The status report also included Abbott’s
request for leave to file a motion for summary judgment
of invalidity of the ’405 patent for nonenablement. (See id.
at 6) In Abbott’s view, good cause was established by the
Gen-Probe Opinion, because “the ’405 patent is related
to and has essentially the same specification as the ’180
patent.” (Id. at 5)
The Court granted Abbott’s request for leave. (D.I.
451) Thereafter, between July 18 and August 1, 2017, the
3. D.I. 413 is an amendment to Abbott’s opening brief, D.I. 410,
and was filed on May 12, 2017. When citing to Abbott’s opening brief,
this Memorandum Opinion refers to D.I. 413, not D.I. 410.

23a
Appendix B
parties submitted additional letter briefing with respect
to enablement. (D.I. 459, 461, 462) The Court heard oral
argument on August 8, 2017. (See Transcript (“Tr.”))
II.	LEGAL STANDARDS
A.	Summary Judgment
Under Rule 56(a) of the Federal Rules of Civil
Procedure, “[t]he court shall grant summary judgment if
the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law.” The moving party bears the burden of
demonstrating the absence of a genuine issue of material
fact. See Matsushita Elec. Indus. Co., Ltd. v. Zenith
Radio Corp., 475 U.S. 574, 585-86, 106 S. Ct. 1348, 89 L.
Ed. 2d 538 (1986). An assertion that a fact cannot be — or,
alternatively, is — genuinely disputed must be supported
either by “citing to particular parts of materials in the
record, including depositions, documents, electronically
stored information, affidavits or declarations, stipulations
(including those made for purposes of the motion only),
admissions, interrogatory answers, or other materials,”
or by “showing that the materials cited do not establish
the absence or presence of a genuine dispute, or that an
adverse party cannot produce admissible evidence to
support the fact.” Fed. R. Civ. P. 56(c)(1)(A) & (B). If the
moving party has carried its burden, the nonmovant must
then “come forward with specific facts showing that there
is a genuine issue for trial.” Matsushita, 475 U.S. at 587
(internal quotation marks omitted). The Court will “draw
all reasonable inferences in favor of the nonmoving party,

24a
Appendix B
and it may not make credibility determinations or weigh
the evidence.” Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133, 150, 120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000).
To defeat a motion for summary judgment, the
nonmoving party must “do more than simply show that
there is some metaphysical doubt as to the material facts.”
Matsushita, 475 U.S. at 586; see also Podobnik v. U.S.
Postal Serv., 409 F.3d 584, 594 (3d Cir. 2005) (stating party
opposing summary judgment “must present more than
just bare assertions, conclusory allegations or suspicions
to show the existence of a genuine issue”) (internal
quotation marks omitted). The “mere existence of some
alleged factual dispute between the parties will not defeat
an otherwise properly supported motion for summary
judgment;” a factual dispute is genuine only where “the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48, 106 S. Ct. 2505, 91 L.
Ed. 2d 202 (1986). “If the evidence is merely colorable, or
is not significantly probative, summary judgment may be
granted.” Id. at 249-50 (internal citations omitted); see
also Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct.
2548, 91 L. Ed. 2d 265 (1986) (stating entry of summary
judgment is mandated “against a party who fails to
make a showing sufficient to establish the existence of an
element essential to that party’s case, and on which that
party will bear the burden of proof at trial”). Thus, the
“mere existence of a scintilla of evidence” in support of
the nonmoving party’s position is insufficient to defeat a
motion for summary judgment; there must be “evidence on
which the jury could reasonably find” for the nonmoving
party. Anderson, 477 U.S. at 252.

25a
Appendix B
B.	Patent Validity Under 35 U.S.C. § 112
Paragraph 1 of 35 U.S.C. § 112 4 states in pertinent
part:
The specification shall contain a written
description of the invention and of the manner
and process of making and using it, in such full,
clear, concise and exact terms as to enable any
person skilled in the art to which it pertains, or
with which it is most nearly connected, to make
and use the same . . . .
The statute sets out separate requirements for written
description and enablement. See Ariad Pharms., Inc. v. Eli
Lilly & Co., 598 F.3d 1336, 1344 (Fed. Cir. 2010) (holding
that written description and enablement requirements
are separate). Nonetheless, these requirements “often
rise and fall together.” Id. at 1352.
1.	Written Description
Whether a specification satisfies the written description
requirement is a question of fact. See GlaxoSmithKline
LLC v. Banner Pharmacaps, Inc., 744 F.3d 725, 729 (Fed.
Cir. 2014); see also Alcon, Inc. v. Teva Pharms. USA, Inc.,
664 F. Supp. 2d 443, 468 (D. Del. 2009) (“Satisfaction of the
4. The patent statute was amended in September 2011 by the
America Invents Act (“AIA”). See Leahy-Smith America Invents
Act, Pub. L. No. 112-29, 125 Stat. 284, 300-01 (2011). The pre-AIA
version of § 112 applies in this case. The post-AIA version of this
portion of the statute (§ 112(a)) is identical to the pre-AIA verison.

26a
Appendix B
written description requirement is a fact-based inquiry,
depending on ‘the nature of the claimed invention and the
knowledge of one skilled in the art at the time an invention
is made and a patent application is filed.’”) (quoting
Carnegie Mellon Univ. v. Hoffinann-La Roche Inc., 541
F.3d 1115, 1122 (Fed. Cir. 2008)). Despite being a question
of fact, the issue of invalidity for lack of written description
can be amenable to summary judgment. See, e.g., Carnegie
Mellon, 541 F.3d at 1126-28 (affirming summary judgment
of invalidity for lack of written description); see also
Helicos Biosciences Corp. v. Illumina, Inc., 888 F. Supp.
2d 519, 530-31 (D. Del. 2012) (“While compliance with the
written description requirement is a question of fact, the
issue is ‘amenable to summary judgment in cases where no
reasonable fact finder could return a verdict for the nonmoving party.’”) (quoting Power Oasis, Inc. v. T-Mobile
USA, Inc., 522 F.3d 1299, 1307 (Fed. Cir. 2008)).
To comply with the written description requirement,
a patent’s specification “must clearly allow persons of
ordinary skill in the art to recognize that the inventor
invented what is claimed.” Ariad, 598 F.3d at 1351
(internal brackets and quotation marks omitted).
“[T]he test for sufficiency is whether the disclosure of the
application relied upon reasonably conveys to those skilled
in the art that the inventor had possession of the claimed
subject matter as of the filing date.” Id. “[T]he hallmark
of written description is disclosure. Thus, ‘possession as
shown in the disclosure’ is a more complete formulation”
of the written description requirement. Id. “[T]he test
requires an objective inquiry into the four comers of
the specification from the perspective of a person of

27a
Appendix B
ordinary skill in the art.” Id. “[T]he written description
requirement does not demand either examples or an actual
reduction to practice; a constructive reduction to practice
that in a definite way identifies the claimed invention can
satisfy the written description requirement.” Id. at 1352.
However, “a description that merely renders the invention
obvious does not satisfy the requirement.” Id.
2.	Enablement
“Enablement is a question of law based on underlying
factual findings.” MagSil Corp. v. Hitachi Glob. Storage
Techs., Inc., 687 F.3d 1377, 1380 (Fed. Cir. 2012). “To be
enabling, the specification of a patent must teach those
skilled in the art how to make and use the full scope of
the claimed invention without undue experimentation.”
Id. (internal quotation marks omitted). “Enablement
serves the dual function in the patent system of ensuring
adequate disclosure of the claimed invention and of
preventing claims broader than the disclosed invention.”
Id. at 1380-81. “Thus, a patentee chooses broad claim
language at the peril of losing any claim that cannot be
enabled across its full scope of coverage.” Id. at 1381. “The
scope of the claims must be less than or equal to the scope
of the enablement to ensure that the public knowledge is
enriched by the patent specification to a degree at least
commensurate with the scope of the claims.” Id. (internal
quotation marks omitted).
“ Whether undue experimentation is needed is
not a single, simple factual determination, but rather
is a conclusion reached by weighing many factual

28a
Appendix B
considerations.” In re Wands, 858 F.2d 731, 737 (Fed.
Cir. 1988). These factors include “(1) the quantity of
experimentation necessary, (2) the amount of direction or
guidance presented, (3) the presence or absence of working
examples, (4) the nature of the invention, (5) the state of
the prior art, (6) the relative skill of those in the art, (7)
the predictability or unpredictability of the art, and (8)
the breadth of the claims.” Id. Although “a specification
need not disclose what is well known in the art,” “[t]ossing
out the mere germ of an idea does not constitute enabling
disclosure.” Genentech, Inc. v. Novo Nordisk A/S, 108
F.3d 1361, 1366 (Fed. Cir. 1997). A patent “cannot simply
rely on the knowledge of a person of ordinary skill to
serve as a substitute for the missing information in the
specification.” ALZA Corp. v. Andrx Pharms., LLC, 603
F.3d 935, 941 (Fed. Cir. 2010).
III.	DISCUSSION
A.	Written Description
1.	Written Description for Hybridization and
Detection of Probes Labeled at Non-Ward
Positions
Abbott seeks summary judgment that the ’405 patent
contains insufficient written description for non-Wardlabeled probes used for hybridization and detection.
(See D.I. 413 at 9) In Abbott’s view, the ’405 patent
specification “at best describes that probes . . . labeled
at non-Ward positions could be made, would hybridize
to complementary nucleic acids of interest, and would be

29a
Appendix B
detected,” but describes no such testing. (Id. at 11) Abbott
further contends that “it would have been necessary to
make and test [a non-Ward-labeled probe]” because, as of
the priority date, “non-Ward labeling was believed to be
disruptive and unsuitable” and the Ward patent 5 taught
away from attaching a non-radioactive label to any position
other than a Ward position. (Id. at 9, 11 (internal quotation
marks omitted; alteration in original); see also D.I. 411-4
Ex. 21 at 63)
Enzo responds that the specification “provide[s]
numerous specific examples of labeling probes at . . . nonWard positions.” (D.I. 423 at 14) Specifically, Enzo contends
that Example V discloses phosphate labeling (see ’405
patent col. 5 11. 40-53); Example XXXIII describes base
labeling at non-Ward positions (see ’405 patent col. 4 11.
16-24, col. 13 11. 23-53); and the specification describes
labeling at the sugar moiety (see ’405 patent col. 3 11. 4553). (See D.I. 423 at 14-15) Enzo further contends that the
specification discloses that “hybridization and detection
are the plain purposes to which each of the above examples
are directed.” (Id. at 15; see also ’405 patent col. 29 11.
34-38) According to Enzo, a person of ordinary skill in
the art (“POSA”) would have “understood each of the
examples discussed above to be a complete embodiment
of the claimed probes” (D.I. 423 at 15 n.10) (emphasis
omitted) and would have also been aware of “a variety of
additional chemistries” for labeling at non-Ward positions
5. The Ward patent discloses labeling at the Ward positions
of the base moiety. The ’405 patent incorporates by reference the
specification of the Ward patent. (See D.I. 413 at 7; ’405 patent col.
3 ll. 15-17)

30a
Appendix B
(id. at 16). Thus, in Enzo’s view, “[a]t a minimum, the
presence of numerous specific examples of the inventions,
and both sides’ expert opinions regarding those examples,
creates disputes of material fact,” precluding summary
judgment. (Id. at 17)
The Court agrees with Enzo that genuine disputes of
material fact preclude summary judgment on whether the
’405 patent contains sufficient written description for nonWard-labeled probes used for hybridization and detection.
(See, e.g., D.I. 411-4 Ex. 21 at 63; D.I. 427 at A2331-55; ’405
patent col. 29 11. 34-38) A reasonable factfinder could find,
as Abbott contends, that no portion of the specification
discloses non-Ward-labeled probes that could successfully
hybridize or be detected. (See D.I. 413 at 9, 11) By contrast,
a reasonable factfinder could also find, as Enzo asserts,
that various parts of the specification disclose non-Wardlabeled polynucleotides that are useful for hybridization
and detection. (See D.I. 423 at 14-16)
Accordingly, the Court will deny this portion of
Abbott’s motion for summary judgment.
2.	Written Description for the In Situ
Hybridization Claims
Abbott seeks summary judgment that the ’405 patent
lacks adequate written description for the claimed
processes recited in the in situ hybridization claims —
specifically, the processes for “determining whether the
number of copies of a particular chromosome in a cell
is normal or abnormal,” “identifying a chromosome of

31a
Appendix B
interest in a cell containing other chromosomes,” and
“identifying a plurality or all of the chromosomes of a
cell of interest.” (D.I. 413 at 15; see also ’405 patent col.
34 ll. 62-64, col. 36 ll. 1-2, col. 37 ll. 7-8) Abbott contends
that “[t]he only portions of the ’405 patent [that] Enzo
identifies as containing any disclosure of th[ose] processes
are the title and abstract,” both of which were added 20
years after the priority date. (D.I. 413 at 15-16) (emphasis
omitted) Abbott further contends that Example 9 of the
Ward patent cannot provide adequate written description
for the in situ hybridization claims because that Example
was prophetic and could not be practiced until 1996. (See
id. at 16; D.I. 411-4 Ex. 27 at 31-34)
Enzo counters that Example 9 provides sufficient
written description for the in situ hybridization claims
because Abbott’s own expert admitted that “[c]ertain
embodiments [of Example 9] certainly could be practiced
without question” in 1981. (D.I. 425 at A809; see also
D.I. 423 at 19 n.10) Enzo further contends that “in situ
hybridization with human and nonhuman chromosomes
was well known by 1982” and, therefore, was available to
a POSA as of the priority date. (D.I. 423 at 9)
The Court concludes that the record reveals a genuine
dispute of material fact with respect to whether Example
9 could be practiced before the priority date. While Abbott
contends that the relevant portions of Example 9 could
not be practiced until approximately 14 years after the
priority date (see D.I. 411-4 Ex. 27 at 31-34), Enzo cites
record evidence that “[c]ertain embodiments . . . certainly
could be practiced without question” before the priority

32a
Appendix B
date (D.I. 425 at A809). A reasonable jury, viewing such
evidence, could find for either Abbott or Enzo on this
dispute.
Accordingly, the Court will deny this portion of
Abbott’s motion for summary judgment.
3.	Written Description for the Liquid Phase
Claims
Abbott requests that the Court grant summary
judgment that the ’405 patent lacks adequate written
description for the liquid phase claims. In support, Abbott
argues that the specification of the ’405 patent “does not
describe any oligo-or polynucleotide . . . used for specific
hybridization in liquid phase to detect a nucleic acid of
interest in a sample,” as required by the liquid phase
claims. (D.I. 413 at 13)
Enzo responds that the specification “explicitly
descr ibe[s]” the probes useful for “detection or
hybridization in the liquid phase between the DNA sought
to be detected and the DNA detecting probe.” (D.I. 423 at
15 (internal quotation marks omitted); see also ’405 patent
col. 19 11. 63-65; col. 20 11. 1-10)) Enzo further asserts
that “[h]ybridization in the liquid phase was known in the
art” and, therefore, available to a POSA as of the priority
date. (D.I. 423 at 9)
The record demonstrates genuine disputes of
fact with respect to whether the ’405 patent contains
adequate written description for the liquid phase claims.

33a
Appendix B
A reasonable jury could find for either side, based on the
record evidence. (See, e.g., D.I. 411-4 Ex. 28 at 163; ’405
patent col. 19 ll. 63-65, col. 20 ll. 1-10)
Accordingly, the Court will deny this portion of
Abbott’s motion for summary judgment.
B.	Enablement
Abbott seeks summary judgment that the asserted
claims of the ’405 patent are invalid for nonenablement
on the basis of the Court’s reasoning in the Gen-Probe
Opinion. (See GP Op.) (granting summary judgment
that asserted claims of ’180 patent are invalid for
nonenablement) In Abbott’s view, the Court’s reasoning
in the Gen-Probe Opinion supports invalidating the ’405
patent on enablement grounds because “[a] specification6
that does not enable the narrower scope of polynucleotides
claimed in the ’180 patent cannot enable the broader scope
of polynucleotides recited in the ’405 patent.” (D.I. 459 at
1; see also Tr. at 6-7, 17) Abbott further contends that the
claims of the ’405 patent, like those of the ’180 patent, “do
not limit the length or sequence of the polynucleotides
and, thus, cover [the] use of at least the same millions
(or more) phosphate-labeled polynucleotides that were
not enabled in the ’180 patent.” (D.I. 459 at 1) (internal
quotation marks omitted)
With respect to other polynucleotides labeled at nonWard positions, Abbott asserts that Enzo “cannot identify
6. It is undisputed that the specifications of the ’405 patent and
’180 patent are identical in relevant part. (See Tr. at 6)

34a
Appendix B
any Example [in the ’405 patent’s specification] that
describes [the] chemistry for the vast majority of the other
non-Ward labeling positions that the ’405 patent seeks to
capture,” including the chemistry for all non-Ward base
labeling positions. (Id. at 2) Abbott further argues that the
methods disclosed in the asserted claims are not enabled
because Enzo’s expert, Dr. Sherman, admitted that “there
[is] no data in the ’405 patent showing that a probe labeled
at a non-Ward position . . . would successfully hybridize.”
(D.I. 459-1 Ex. 6 at 193-94) According to Abbott, the lack
of any such experiment being reported in the specification
establishes that a POSA would have had to engage in
“undue experimentation” in order to confirm that nonWard-labeled probes work, given the “vast number of
possible variants to the claimed invention.” (D.I. 459 at
2) (internal quotation marks omitted)
Enzo responds that “the ’405 [p]atent specification
descr ibes in g reat detail a w ide var iety of nonradioactively[-]labeled polynucleotides that can be used
in the claimed methods, including probes labeled . . . at
. . . non-Ward positions.” (D.I. 461 at 3) (citing ’405 patent
col. 3 ll. 20-67, col. 4 ll. 1-24, col. 5 ll. 40-53, col. 12 ll. 4867, col. 13 ll. 1-54, col. 22 ll. 56-67, cols. 23-24, col. 25 ll.
1-66 as disclosing probes labeled at sugar, phosphate,
and certain base moieties) Enzo further contends that
“skilled artisans were aware of additional chemistries for
attaching labels at the other non-Ward positions” that are
not explicitly disclosed in the specification. (Id.) In Enzo’s
view, the variations in “polynucleotide sequence, length,
labels, linkers, and position of labeling” would not “render
any application of the claimed methods inoperable” and,

35a
Appendix B
therefore, a POSA could practice the invention “without
engaging in undue (if any) experimentation.” (Id. at 2-3)
(emphasis omitted)
According to Enzo, the specific limitations recited
in the asserted claims are adequately described in the
specification or were already known in the art. With
respect to the in situ hybridization claims in particular,
Enzo notes that Abbott’s expert admitted that “the
practice of the claimed methods would have been enabled
with over 50 different probe designs and that deploying
those alleged probes in the claimed in situ hybridization
processes would have yielded predictable results.” (D.I.
461 at 5) (internal quotation marks and emphasis omitted)
Enzo further contends that the specification’s disclosure
of probes labeled at non-Ward positions would also have
enabled a POSA to practice the in situ hybridization
claims. (See id. at 4; see also id. at 3)
At oral argument, Enzo’s counsel further argued
that the embodiments recited in the liquid phase claims
were “irrelevant” because “[t]he novelty of liquid phase
hybridization claims lies . . . in the inventive combination
of performing liquid phase hybridization with a nonradioactive probe, whatever the structure of the probe,
followed by detection.” (Tr. at 24-25) As such, in Enzo’s
view, “the exact nature, structure, location of labeling,
sequence, etc. of the non-radioactive[ly]-labeled probe is
tangential to the invention” and, thus, cannot “render the
invention [recited in the liquid phase claims] invalid for
lack of enablement.” (See id. at 26-27; see also id. at 31-32
(citing ’405 patent col. 19 11. 62-67, col. 20 11. 2-10, 26-43 as

36a
Appendix B
providing support for counsel’s argument that “the novelty
[of the invention] . . . lies in the use of [a] particular type of
hybridization in the liquid phase . . . using non-radioactive
labels, followed by detection of those labels”))
In its reply, Abbott argues that Enzo’s opposition
“repeat[s] arguments that the Court has already rejected”
in the Gen-Probe Opinion. (D.I. 462 at 1) (emphasis
omitted) Specifically, Abbott notes that even though
the Court has already concluded that “no ‘part[] of the
specification indicates whether an internal phosphatelabeled polynucleotide maintain[s] hybridizability
and detectability’” (id.) (quoting GP Op. at 15; second
alteration in original), Enzo insists that the specification
of the ’405 patent “‘completely’ discloses polynucleotides
‘labeled at the phosphate moiety’” (id.) (quoting D.I. 461
at 1). In Abbott’s view, given the lack of disclosure in
the specification, a POSA would be required to engage
in undue experimentation to identify and determine
whether the claimed phosphate-, sugar-, and baselabeled polynucleotides “might be useful in the claimed
processes.” (Id.) Abbott further contends that a POSA
would have considered non-Ward-labeled probes to be
inoperative, in view of the state of the art at the pertinent
time. (See id. at 2)7
While Enzo contends that the specification discloses
the limitations of the asserted claims, Abbott replies that
7. The Court agrees with Abbott that while inoperability can
be a basis for nonenablement, it is not a prerequisite to a finding of
nonenablement. (See D.I. 462 at 2) (citing Wyeth & Cordis Corp. v.
Abbott Labs., 720 F.3d 1380, 1384 (Fed. Cir. 2013))

37a
Appendix B
“[t]he ’405 patent does not describe the claimed in situ
hybridization processes at all” and also fails to “describe[]
. . . the conditions (e.g. probe concentration, temperature,
salt concentration, etc.) under which the [liquid-phase]
process[es] can occur.” (Id.) (citing testimony of Enzo’s
expert that liquid-phase hybridization “depends on such
conditions”) Abbott further asserts that the distinction
between the ’180 and ’405 patent claims “makes no
difference” to the Court’s analysis: although “the ’180
patent claims products [and] the ’405 patent claims
processes,” the claimed processes of the ’405 patent
“depend on the hybridizability and detectability of the
claimed probes.” (Id.) “Without enabled probes,” Abbott
argues, “the processes [claimed in the ’405 patent] cannot
be enabled.” (Id.; see also id. at 1 (arguing that certain
probes are not enabled to maintain hybridizability and
detectability); Tr. at 9 (counsel for Abbott asserting that
“[t]he ’405 patent claims are process claims, but this only
makes them less enabled, not more”))
“To prove that a claim is invalid for lack of enablement,
a challenger must show by clear and convincing evidence
that a person of ordinary skill in the art would not be
able to practice the claimed invention without ‘undue
experimentation.’” Alcon Research Ltd. v. Barr Labs.,
Inc., 745 F.3d 1180, 1188 (Fed. Cir. 2014) (quoting Wands,
858 F.2d at 736-37). Having applied this standard to the
record evidence, and taking that evidence in the light most
favorable to Enzo as the non-moving party, the Court
concludes that there is no genuine dispute of fact that
the asserted claims of the ’405 patent are nonenabled. A
reasonable jury could not find for Enzo. Instead, the only

38a
Appendix B
conclusion a reasonable jury could reach is that clear and
convincing evidence proves the ’405 patent is invalid for
noneablement.
“[T]he specification must teach those of skill in the art
how to make and how to use the invention as broadly as
it is claimed.” In re Goodman, 11 F.3d 1046, 1050 (Fed.
Cir. 1993) (internal quotation marks omitted; emphasis
added). Here, even though the specifications of the ’180
and ’405 patents are identical in all relevant respects,
the asserted claims of the ’405 patent are even broader
than the asserted claims of the ’180 patent that the Court
invalidated as nonenabled in the Gen-Probe Opinion. (See
GP Op.; D.I. 449-1 Ex. 4 at 148-49) Given the breadth of
the asserted claims and given the Court’s conclusions in
the Gen-Probe Opinion, the Court agrees with Abbott
that “[a] specification that does not enable the narrower
scope of polynucleotides claimed in the ’180 patent cannot
enable the broader scope of polynucleotides recited in the
’405 patent.” (D.I. 459 at 1)
Enzo argues that the specification of the ’405 patent
adequately describes “the broader scope of [non-Wardlabeled] polynucleotides recited in the ’405 patent.” (Id.;
see also D.I. 461 at 3 (citing parts of specification that
describe claimed polynucleotides)) But the Court already
rejected this contention in the Gen-Probe Opinion, finding
that no “part[] of the specification indicates whether an
internal phosphate-labeled polynucleotide maintain[s]
hybridizability and detectability.” (GP Op. at 15 (internal
quotation marks omitted; second alteration in original);
see also Amgen, Inc. v. Genetics Inst., Inc., 98 F.3d 1328,

39a
Appendix B
1331 (Fed. Cir. 1996) (“[S]ince the ‘195 specification did
not enable EPO having a specific activity of at least
160,000 IU/AU, enablement of that product could not be
relitigated for the identical ‘837 specification.”)) Similarly,
with respect to the ’405 patent in particular, no part of
the specification discloses base labeling at all non-Ward
positions, much less whether all non-Ward base-labeled
probes would maintain hybridizability and detectability.
(See D.I. 459 at 2; see also Genentech, 108 F.3d at 1366
(“Patent protection is granted in return for an enabling
disclosure of an invention, not for vague intimations of
general ideas that may or may not be workable.”)). Given
the claims’ scope and the specification’s limited disclosure,
Abbott correctly asserts that a POSA “would have no
choice but to make and test a vast number of possible
variants to the claimed invention.” (D.I. 459 at 2) (internal
quotation marks omitted) Undue experimentation would
be required, rendering the claims non-enabled.
That the asserted claims are process claims does
nothing to reduce the amount of experimentation required.
This is because each process in the asserted claims
“depend[s] on the hybridizability and detectability of the
claimed probes.” (D.I. 462 at 2) But since the specification
does not enable the claimed probes — no “part[] of the
specification indicates whether an internal phosphatelabeled polynucleotide maintain[s] hybridizability and
detectability,” and no part of the specification discloses
base labeling at all non-Ward positions (GP Op. at 15
(internal quotation marks omitted; second alteration in
original); see also Tr. at 9 (counsel for Abbott stating
that “[i]f the polynucleotide is not enabled at all, . . . the

40a
Appendix B
processes using that polynucleotide cannot be enabled”))
— the processes recited in the asserted claims of the ’405
patent are also non-enabled.
The Court agrees with Abbott’s comparison of the
present situation to that confronted by the Federal Circuit
in Wyeth & Cordis Corp. v. Abbott Labs., 720 F.3d 1380
(Fed. Cir. 2013). In Wyeth, the Federal Circuit affirmed
a grant of summary judgment based on nonenablement.
See id. at 1386. Here, “(1) the claims are far broader than
in Wyeth, 8 (2) the disclosures here are far less than in
Wyeth,9 (3) the relevant field is even more unpredictable
than in Wyeth,10 and (4) the trial-and-error process would
have taken even longer than in Wyeth.”11 (GP Op. at 15)
8. As Abbott argues, “the millions (or more) of [non-Ward]labeled polynucleotides with varying sequences and lengths covered
by each asserted claim of the [’405] patent far exceed the tens of
thousands of sirolimus analogs in Wyeth and the millions or more of
phosphate-labeled polynucleotides covered by the ’180 patent.” (D.I.
459 at 3) (internal quotation marks omitted; alterations in original)
9. Abbott argues that, “[w]hile the specification in Wyeth
disclosed at least one working example of the claimed invention
(sirolimus) . . . , the [’405] patent discloses none.” (D.I. 459 at 3)
(internal quotation marks omitted; second alteration in original)
Abbott further points out that, “unlike for the ’180 patent, Enzo
does not even argue that there is a prophetic example showing the
labeling chemistry for each non-Ward position.” (Id.)
10. Abbott notes that “Enzo’s own expert explicitly admitted
that, in 1982, there was ‘no’ ‘ab[ility] to predict which chemical
transformations and which label types and positions would be likely
to work.’” (D.I. 459 at 3) (quoting D.I. 459-1 Ex. 6 at 148)
11. Abbott contends, “[t]he [trial-and-error] process would have
been even longer for the ’405 patent than for the ’180 patent because
the claimed scope of polynucleotides is greater.” (D.I. 459 at 3)

41a
Appendix B
(internal quotation marks omitted) It follows that here,
as in Wyeth, there is no genuine dispute that the claims
are invalid due to nonenablement.
This same conclusion is supported by consideration
of the Wands factors. See 858 F.2d at 737. Based on
the record, a reasonable factfinder could only find: “(1)
the quantity of experimentation necessary to arrive at
embodiments equal to the full scope of the claims is undue;
(2) insufficient direction or guidance is presented in the
patent to allow a POSA to avoid undue experimentation;
(3) insufficient working examples are present; 12 (4)
the invention arises in a field of art that was highly
unpredictable at the time of the invention; (5) the prior
art showed that the pertinent field was unpredictable; (6)
even though the relative skill of those in the art was high,
POSAs at the time did not have sufficient knowledge to
fill in all that is missing from the patent; (7) the art was,
as already noted, highly unpredictable; and (8) the claims
are extremely broad.” (GP Op. at 16) (internal quotation
marks omitted)
Enzo opposes this conclusion, arguing that the liquid
phase claims are enabled because “the exact nature,
structure, location of labeling, sequence, etc. of the nonradioactive[ly] PA-labeled probe is tangential” to the
invention recited in the liquid phase claims. (Tr. at 27) As
stated above, however, the processes claimed in the liquid
phase claims cannot be enabled if the polynucleotides
12. Abbott notes that the specification contains no working
examples for any non-Ward position. (See D.I. 459 at 3)

42a
Appendix B
are not enabled. (See id. at 9) Moreover, even if one such
process with one particular embodiment were enabled,
that would still fail to enable the full scope of the liquid
phase claims. This is because a POSA at the pertinent
time had “no” “ab[ility] to predict which chemical
transformations and which label types and positions would
be likely to work,” according even to Enzo’s expert, Dr.
Sherman. (D.I. 459-1 Ex. 6 at 148) Thus, the presence of
one enabling embodiment would be insufficient to enable
the entire scope of the claim, as of the priority date. See
In re Goodman, 11 F.3d at 1050 (“[T]he specification must
teach those of skill in the art how to make and how to use
the invention as broadly as it is claimed.”).
Accordingly, the Court will grant Abbott’s motion
for summary judgment that the ’405 patent is invalid for
nonenablement.13

13. The Court is not persuaded by Enzo’s citation to Delaware
Display Group LLC v. Vizio, Inc., 2017 U.S. Dist. LEXIS 28656, 2017
WL 784988, at *5 (D. Del. Mar. 1, 2017), in which Judge Andrews
rejected a nonenablement challenge, reasoning that tangential, nonnovel aspects of claims do not require enablement. Here, the record
would not permit a reasonable factfinder to find that all of what is
nonenabled in the liquid phase claims of the ’405 patent is non-novel
or tangential to the claimed invention. (See D.I. 427 at A2130 (“There
was skepticism in the art about non-radioactively labeling a nucleic
acid probe at a position other than the Ward positions before June
23, 1982.”); id. at A2134 (stating that invention claimed in ’405 patent
“facilitates the use of non-radioactive labels in the hybridization
[and] detection process”))

43a
Appendix B
IV.	CONCLUSION
For the foregoing reasons, the Court will deny
Abbott’s motion with respect to the written description
requirement and will grant Abbott’s motion with respect
to nonenablement. An appropriate Order follows.

44a
Appendix C
Appendix c — memorandum
opinion of
the united states district court for
the district of delaware,
filed june 28, 2017
IN THE United States District Court
for the District of Delaware
June 28, 2017, Decided;
June 28, 2017, Filed
C.A. No. 12-104-LPS
ENZO LIFE SCIENCES, INC.,
Plaintiff,
v.
GEN-PROBE INCORPORATED,
Defendant.
C.A. No. 12-106-LPS
ENZO LIFE SCIENCES, INC.,
Plaintiff,
v.
ROCHE MOLECULAR SYSTEMS, INC.;
ROCHE DIAGNOSTICS CORPORATION; ROCHE
DIAGNOSTICS OPERATIONS, INC.; and ROCHE
NIMBLEGEN, INC.,
Defendants.

45a
Appendix C
C.A. No. 12-275-LPS
ENZO LIFE SCIENCES, INC.,
Plaintiff,
v.
BECTON, DICKINSON AND COMPANY;
BECTON DICKINSON DIAGNOSTICS INC.;
and GENOHM SCIENCES, INC.,
Defendants.
C.A. No. 12-276-LPS
ENZO LIFE SCIENCES, INC.,
Plaintiff,
v.
HOLOGIC, INC.,
Defendant.
MEMORANDUM OPINION
June 28, 2017
Wilmington, Delaware
/s/ Leonard P. Stark

46a
Appendix C
STARK, U.S. District Judge:
Pending before the Court are: (i) Defendants Gen-Probe
Inc. (“Gen-Probe”); Roche Molecular Systems, Inc, Roche
Diagnostics Corporation, Roche Diagnostics Operations, Inc.,
and Roche Nimblegen, Inc. (collectively, “Roche”); Becton,
Dickinson and Company, Becton Dickinson Diagnostics
Inc., and Geneohm Sciences, Inc. (collectively, “BD”); and
Hologic, Inc.’s (“Hologic,” and collectively, with Gen-Probe,
Roche, and BD, “Defendants”) Motion for Summary
Judgment of Invalidity of U.S. Patent No. 6,992,180 (the ’180
patent”) for Failure to Comply with the Written Description
Requirement (C.A. No. 12-104-LPS D.I. 227),1 and (ii) GenProbe’s and Hologic’s Motion for Summary Judgment of
Invalidity of the ’180 Patent for Nonenablement (D.I. 221).
For the reasons set forth below, the Court will deny
Defendants’ motion with respect to the written description
requirement and will grant Gen-Probe’s and Hologic’s
motion with respect to nonenablement.
I.

BACKGROUND

Plaintiff Enzo Life Sciences, Inc. (“Plaintiff” or “Enzo”)
filed patent infringement actions against Defendants,
alleging infringement of the ’180 patent as well as U.S.
Patent No. 7,064,197 (“the ‘197 patent”). “The ’180 patent
generally relates to non-radioactive nucleic acid detection
technology,” while “[t]he ‘197 patent generally relates to
nucleic acid hybridization technology involving non-porous
solid supports.” (C.A. No. 12-106-LPS D.I. 260 at 3)
1. Unless otherwise noted, all citations to the docket are to
C.A. No. 12-104-LPS.

47a
Appendix C
The ’180 patent, which is the subject of the pending
motions, was issued on January 31, 2006 and claims
priority to June 23, 1982. (D.I. 247 at 3) Defendants’
motions focus on representative claim 1 of the ’180 patent,
which states, in relevant part:
A n ol igo - or p oly nucleot ide wh ich i s
complementary to a nucleic acid of interest or
a portion thereof, said oligo - or polynucleotide
comprising at least one modified nucleotide or
modified nucleotide analog having the formula
Sig-PM-SM-BASE
wherein . . . said Sig comprises a non-polypeptide,
non-nucleotidyl, non-radioactive label moiety
which can be directly or indirectly detected when
attached to PM or when said modified nucleotide
is incorporated into said oligo-or polynucleotide
or when said oligo - or polynucleotide is
hybridized to said complementary nucleic acid
of interest or a portion thereof, and wherein Sig
comprises biotin, iminobiotin, an electron dense
component, a magnetic component, a metalcontaining component, a fluorescent component,
a chemiluminescent component, a chromogenic
component, a hapten or a combination of any of
the foregoing.
’180 patent col. 5911. 62-67, col. 6011. 1-21. 2
2. All asserted claims include, or depend from claims that
include, the pertinent limitations in representative claim 1. (See
D.I. 228 at 7 n.6)

48a
Appendix C
On December 15, 2016, Defendants moved for
summary judgment of invalidity of the ’180 patent for lack
of written description (D.I. 227) and enablement (D.I. 221).
Enzo filed its briefs in opposition to Defendants’ motions
on February 16, 2017 (D.I. 251 (written description), D.I.
247 (enablement)), and Defendants filed their reply briefs
on March 20, 2017 (D.I. 269 (written description), D.I. 266
(enablement)). The Court heard oral argument on both
motions on April 4, 2017. (See Transcript (“Tr.”))3
II.	LEGAL STANDARDS
A.	Summary Judgment
Under Rule 56(a) of the Federal Rules of Civil
Procedure, “[t]he court shall grant summary judgment if
the movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law.” The moving party bears the burden of
demonstrating the absence of a genuine issue of material
fact. See Matsushita Elec. Indus. Co., Ltd. v. Zenith
Radio Corp., 475 U.S. 574, 585-86, 106 S. Ct. 1348, 89 L.
Ed. 2d 538 (1986). An assertion that a fact cannot be — or,
alternatively, is — genuinely disputed must be supported
either by “citing to particular parts of materials in the
record, including depositions, documents, electronically
stored information, affidavits or declarations, stipulations
(including those made for purposes of the motion only),
admissions, interrogatory answers, or other materials,”
3. The Court heard argument at the same time on the parties’
other motions, which will be resolved by separate opinion(s).

49a
Appendix C
or by “showing that the materials cited do not establish
the absence or presence of a genuine dispute, or that an
adverse party cannot produce admissible evidence to
support the fact.” Fed. R. Civ. P. 56(c)(1)(A) & (B). If the
moving party has carried its burden, the nonmovant must
then “come forward with specific facts showing that there
is a genuine issue for trial.” Matsushita, 475 U.S. at 587
(internal quotation marks omitted). The Court will “draw
all reasonable inferences in favor of the nonmoving party,
and it may not make credibility determinations or weigh
the evidence.” Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133, 150, 120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000).
To defeat a motion for summary judgment, the
nonmoving party must “do more than simply show that
there is some metaphysical doubt as to the material facts.”
Matsushita, 475 U.S. at 586; see also Podobnik v. U.S.
Postal Serv., 409 F.3d 584, 594 (3d Cir. 2005) (stating party
opposing summary judgment “must present more than
just bare assertions, conclusory allegations or suspicions
to show the existence of a genuine issue”) (internal
quotation marks omitted). The “mere existence of some
alleged factual dispute between the parties will not defeat
an otherwise properly supported motion for summary
judgment;” a factual dispute is genuine only where “the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48, 106 S. Ct. 2505, 91 L.
Ed. 2d 202 (1986). “If the evidence is merely colorable, or
is not significantly probative, summary judgment may be
granted.” Id. at 249-50 (internal citations omitted); see
also Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct.

50a
Appendix C
2548, 91 L. Ed. 2d 265 (1986) (stating entry of summary
judgment is mandated “against a party who fails to
make a showing sufficient to establish the existence of an
element essential to that party’s case, and on which that
party will bear the burden of proof at trial”). Thus, the
“mere existence of a scintilla of evidence” in support of
the nonmoving party’s position is insufficient to defeat a
motion for summary judgment; there must be “evidence on
which the jury could reasonably find” for the nonmoving
party. Anderson, 477 U.S. at 252.
B.	Patent Validity Under 35 U.S.C. § 112
Paragraph 1 of 35 U.S.C. § 112 4 states in pertinent
part:
The specification shall contain a written
description of the invention and of the manner
and process of making and using it, in such full,
clear, concise and exact terms as to enable any
person skilled in the art to which it pertains, or
with which it is most nearly connected, to make
and use the same . . . .
The statute sets out separate requirements for written
description and enablement. See Ariad Pharms., Inc. v. Eli
Lilly & Co., 598 F.3d 1336, 1344 (Fed. Cir. 2010) (holding
4. The patent statute was amended in September 2011 by the
America Invents Act (“AIA”). See Leahy-Smith America Invents
Act, Pub. L. No. 112-29, 125 Stat. 284, 300-01 (2011). The pre-AIA
version of § 112 applies in this case. The post-AIA version of this
portion of the statute (§ 112(a)) is identical to the pre-AIA verison.

51a
Appendix C
that written description and enablement requirements
are separate). Nonetheless, these requirements “often
rise and fall together.” Id. at 1352.
1.	Written Description
Whether a specification satisfies the written description
requirement is a question of fact. See GlaxoSmithKline
LLC v. Banner Pharmacaps, Inc., 744 F.3d 725, 729 (Fed.
Cir. 2014); see also Alcon, Inc. v. Teva Pharms. USA, Inc.,
664 F. Supp. 2d 443, 468 (D. Del. 2009) (“Satisfaction of the
written description requirement is a fact-based inquiry,
depending on ‘the nature of the claimed invention and the
knowledge of one skilled in the art at the time an invention
is made and a patent application is filed.”) (quoting
Carnegie Mellon Univ. v. Hoffmann-La Roche Inc., 541
F.3d 1115, 1122 (Fed. Cir. 2008)). Despite being a question
of fact, the issue of invalidity for lack of written description
can be amenable to summary judgment. See, e.g., Carnegie
Mellon, 541 F.3d at 1126-28 (affirming summary judgment
of invalidity for lack of written description); see also
Helicos Biosciences Corp. v. Illumina, Inc., 888 F. Supp.
2d 519, 530-31 (D. Del. 2012) (“While compliance with the
written description requirement is a question of fact, the
issue is ‘amenable to summary judgment in cases where
no reasonable fact finder could return a verdict for the
non-moving party.”) (quoting PowerOasis, Inc. v. T-Mobile
USA, Inc., 522 F.3d 1299, 1307 (Fed. Cir. 2008)).
To comply with the written description requirement,
a patent’s specification “must clearly allow persons of
ordinary skill in the art to recognize that the inventor

52a
Appendix C
invented what is claimed.” Ariad, 598 F.3d at 1351
(internal brackets and quotation marks omitted).
“[T]he test for sufficiency is whether the disclosure of the
application relied upon reasonably conveys to those skilled
in the art that the inventor had possession of the claimed
subject matter as of the filing date.” Id. “[T]he hallmark
of written description is disclosure. Thus, ‘possession as
shown in the disclosure’ is a more complete formulation”
of the written description requirement. Id. “[T]he test
requires an objective inquiry into the four corners of
the specification from the perspective of a person of
ordinary skill in the art.” Id. “[T]he written description
requirement does not demand either examples or an actual
reduction to practice; a constructive reduction to practice
that in a definite way identifies the claimed invention can
satisfy the written description requirement.” Id. at 1352.
However, “a description that merely renders the invention
obvious does not satisfy the requirement.” Id.
2.	Enablement
“Enablement is a question of law based on underlying
factual findings.” MagSil Corp. v. Hitachi Glob. Storage
Techs., Inc., 687 F.3d 1377, 1380 (Fed. Cir. 2012). “To be
enabling, the specification of a patent must teach those
skilled in the art how to make and use the full scope of
the claimed invention without undue experimentation.”
Id. (internal quotation marks omitted). “Enablement
serves the dual function in the patent system of ensuring
adequate disclosure of the claimed invention and of
preventing claims broader than the disclosed invention.”
Id. at 1380-81. “Thus, a patentee chooses broad claim

53a
Appendix C
language at the peril of losing any claim that cannot be
enabled across its full scope of coverage.” Id. at 1381. “The
scope of the claims must be less than or equal to the scope
of the enablement to ensure that the public knowledge is
enriched by the patent specification to a degree at least
commensurate with the scope of the claims.” Id. (internal
quotation marks omitted).
“ Whether undue experimentation is needed is
not a single, simple factual determination, but rather
is a conclusion reached by weighing many factual
considerations.” In re Wands, 858 F.2d 731, 737 (Fed.
Cir. 1988). These factors include “(1) the quantity of
experimentation necessary, (2) the amount of direction or
guidance presented, (3) the presence or absence of working
examples, (4) the nature of the invention, (5) the state of
the prior art, (6) the relative skill of those in the art, (7)
the predictability or unpredictability of the art, and (8)
the breadth of the claims.” Id. Although “a specification
need not disclose what is well known in the art,” “[t]ossing
out the mere germ of an idea does not constitute enabling
disclosure.” Genentech, 108 F.3d at 1366. A patent “cannot
simply rely on the knowledge of a person of ordinary skill
to serve as a substitute for the missing information in the
specification.” ALZA Corp. v. Andrx Pharms., LLC, 603
F.3d 935, 941 (Fed. Cir. 2010).

54a
Appendix C
III.	DISCUSSION
A.	Written Description
1.	Written Description for the Functional
Limitations of Claim 1
Defendants seek summary judgment that the ’180
patent lacks adequate written description for the functional
limitations of claim 1: “(1) the labeled polynucleotide is
hybridized to a nucleic acid sequence of interest, and (2)
. . . the label is detectable when the labeled polynucleotide
is so hybridized.” (D.I. 228 at 6) In Defendants’ view, the
specification does not adequately describe these limitations
because Example V — which, according to Defendants, is
“the only example anywhere in the intrinsic record that
purports to describe the manufacture or synthesis of
a phosphate labeled polynucleotide” — “undisputed[ly]
. . . provides [no] description relating to hybridization or
detectability upon hybridization.” (Id. at 7) Defendants
further contend that Enzo’s technical expert admitted
that the rest of the specification contains “no example,
experiment, or data . . . to suggest that the product of
Example V could hybridize or that its label is detectable
when hybridized.” (Id. at 11; see also D.I. 229-1 Ex. 5 at
131-32)
Enzo responds that “[a] person of ordinary skill
[(‘POSA’)] would have understood” the words “probe”
and “hybridization probe” in the ’180 patent specification
“to (1) be capable of hybridizing and (2) be detectable
upon hybridization.” (D.I. 251 at 4) In Enzo’s view, a

55a
Appendix C
POSA would have also understood that “hybridization
and detection is the plain purpose to which Example V is
directed.” (Id. at 9) In addition to Example V, Enzo argues
that the specification’s “explicit disclosures of phosphate
attachment[s], labels, linkages, and exemplary chemistry
for making the labeled nucleic acids . . . would have served
as common structural features that allowed [POSAs] to
recognize that the inventors possessed phosphate-labeled
polynucleotides capable of hybridization and subsequent
detection.” (Id. at 10) At oral argument, Enzo additionally
pointed to column 54 line 18 — a portion of the specification
in addition to Example V — as supplying the method for
probes that is “useful for hybridization and detection.” (Tr.
at 95; see also ’180 patent col. 5411. 18-23 (“A particularly
important and useful aspect of the special nucleotides
of this invention is the use of such nucleotides in the
preparation of DNA or RNA probes. Some probes would
contain a nucleotide sequence substantially matching the
DNA or RNA sequence of genetic material to be located
and/or identified.”))
The record demonstrates genuine disputes of material
fact with respect to whether the ’180 patent contains
adequate written description to support the functional
limitations of claim 1. A reasonable jury could find, as
Defendants assert, that neither Example V nor the rest
of the specification “provides any description relating to
hybridization or detectability upon hybridization.” (D.I.
228 at 7) Alternatively, a reasonable jury could instead
find, as Enzo contends, that Example V and/or the rest of
the specification would allow a POSA “to recognize that
the inventors possessed phosphate-labeled polynucleotides

56a
Appendix C
capable of hybridization and subsequent detection.” (D.I.
251 at 10) Hence, the record contains sufficient evidence
from which a reasonable jury could find for either
Defendants or Enzo on written description with respect
to claim 1’s functional limitations. (See, e.g., D.I. 228 at
11; D.I. 229-1 Ex. 5 at 131-32; D.I. 251 at 9-10; ’180 patent
col. 54 11. 18-23)
Accordingly, the Court must deny this portion of
Defendants’ motion for summary judgment.
2.	Written Description for Making Internal
Phosphate-Labeled Polynucleotides
Defendants argue that the Court should grant
summary judgment that the specification of the ’180
patent lacks adequate written description for “making
. . . internal phosphate-labeled oligonucleotides” (D.I. 228 at
9) (emphasis omitted); that is, nucleic acids “having a label
positioned internally rather than at the end of the nucleic
acid” (id. at 1). In support of their motion, Defendants note
“[i]t is undisputed that, if the synthesis scheme of Example
V worked at all, it would only succeed in attaching a biotin
to [a] terminal phosphate,” not an internal phosphate. (Id.
at 8) (emphasis omitted) Defendants further contend that,
“[w]ith respect to Example V, Enzo told the Patent Office
that Example V resulted in a terminal label — and not an
internal label.” (Id. at 13) In Defendants’ view, the rest of
the specification similarly lacks an “example, experiment,
or model of any specific species of [an] internal phosphatelabeled polynucleotide.” (Id.)

57a
Appendix C
Enzo counters that “Example V of the ’180 [p]atent
specification discloses a method that attaches biotin at
phosphate moieties, whether terminal or internal, by
way of the amine groups on biotinylated poly-L-lysine
and biotinyl-1,6-diaminohexane.” (D.I. 251 at 15; see
also D.I. 252 Ex. 9 at A307 (expert testimony)) Enzo
further contends that a POSA “would have been aware
of art showing how to incorporate moieties such as aryl,
alkyl, and methyl phosphonates at internal positions that
would have been understood as suitable chemistry for
likewise incorporating a signaling moiety (and linkage)
at internal positions.” (D.I. 251 at 16; see also D.I. 2521 Ex. 38 at A807-08, 813-14) Thus, in Enzo’s view, “at a
minimum, a dispute of material fact exists as to whether
Example V discloses internal labeling” and whether a
POSA would have been aware of “suitable chemistry
for . . . incorporating a signaling moiety . . . at internal
positions.” (D.I. 251 at 16)
The Court agrees with Enzo that genuine disputes of
material fact preclude summary judgment on this issue.
The parties disagree as to whether Example V discloses a
method that attaches biotin to internal phosphate moieties.
(Compare D.I. 228 at 8, 13 with D.I. 251 at 15) The
parties further disagree on whether a POSA would have
been aware of suitable chemistry for internal labeling.
(Compare D.I. 228 at 17 with D.I. 251 at 16) Both sides
cite record evidence for their contentions, including expert
opinions, such that a reasonable jury could find for either
side: finding insufficient written description for internal
phosphate labeling or, alternatively, adequate written
description for internal phosphate labeling. Therefore,

58a
Appendix C
the record demonstrates genuine disputes of material
fact with respect to whether Example V discloses internal
phosphate labeling and whether the chemistry for internal
phosphate labeling was known in the art.
Accordingly, the Court must deny this portion of
Defendants’ motion for summary judgment.
B.	Enablement
Defendants Gen-Probe and Hologic (collectively,
hereinafter, “Hologic”) 5 request that the Court grant
summary judgment that the ’180 patent is invalid for
nonenablement because the specification lacks any
“meaningful disclosure . . . on how to make and use the
vast number of phosphate-labeled polynucleotides covered
by the asserted claims.” (D.I. 222 at 7) In support of its
argument, Hologic points to the following statement in
the ’180 patent about a phosphate-modified nucleotide:
The special nucleotides of this invention include
a phosphoric acid P moiety (also designated
hereinbelow as “PM”), a sugar or monosaccharide
S moiety (also designated hereinbelow as “SM”),
a base B moiety (also designated hereinbelow
as “BASE”), a purine or a pyrimidine and a
signal[]ing chemical moiety Sig covalently
attached thereto, e[it]her to the P, S or B moiety.
(D.I. 222 at 7) (quoting ’180 patent at col. 48 11. 60-66)
5. Gen-Probe became a part of Hologic in August 2012. (D.I.
222 at 1 n.1)

59a
Appendix C
Hologic argues that “[t]he above disclosure does not
indicate . . . any specific nucleotide, any specific label,
any specific linker, any specific position of a phosphatemodified nucleotide within the polynucleotide, or any
specific sequence of length of the polynucleotide.” (D.I.
222 at 7) In Hologic’s view, the rest of the specification
similarly “provides no guidance on how to select, among
numerous possibilities, the sequence and length of the
polynucleotide, the location and number of internal
phosphate labels, or the location and number of nucleotide
analogs.” (Id. at 12)
Hologic further argues that the unpredictability in the
state of the art contributes to rendering the ’180 patent
invalid for nonenablement. (See id. at 8-9, 13-15) Hologic
cites testimony of Enzo’s expert, Dr. Backman, who opined
that, as of the priority date, “it was commonly thought
that . . . chemically labeling the phosphate group would
interfere with hybridization.” (Id. at 8) (internal quotation
marks omitted) Hologic additionally cites the testimony of
one of the ’180 patent inventors, Dr. Stavrianopoulos, who
acknowledged that internal labeling “required methods
and principles of organic chemistry [that were] unknown”
as of the priority date (id. at 14) and remain “difficult
. . . even today” (id. at 10) (internal quotation marks
omitted). In Hologic’s view, making an internal-phosphatepolynucleotide would have also required “extensive
experimentation” because, while “each asserted claim
covers all polynucleotides up to 100,000 DNA nucleotides
long” (id. at 6), yet “the maximum length for chemical
synthesis of a polynucleotide in 1982 was 15 nucleotides”
(id. at 9) (citing Dr. Stavrianopoulos’s testimony).

60a
Appendix C
Furthermore, according to Hologic, “[t]he synthesis of
a polynucleotide longer than 100,000 nucleotides was not
achieved until 2008.” (Id.)
Enzo responds that “[t]he ’180 [p]atent specification
discloses signaling moieties, . . . provides several examples
of chemical linkages, . . . discloses exemplary lengths of
the claimed polynucleotides (e.g., 5 to 500 nucleotides),
. . . [a]nd . . . discloses that the label is detectable.” (D.I.
247 at 7) In particular, Enzo contends that Example V
“describes a method for attaching biotin at terminal and
internal phosphate moieties of DNA polynucleotides.”
(Id. at 7-8) (“Example V . . . appl[ies] chemistry known in
the art to create an embodiment of the invention”) Enzo
further contends that a POSA attempting to practice the
invention “would not have considered every conceivable
variation” or sequence of the claimed polynucleotide (id.
at 12) (emphasis omitted), because “the specific sequence
of the claimed polynucleotide is . . . no[t] germane to the
claimed inventions” (id. at 1) (emphasis omitted). Finally,
in Enzo’s view, practicing the inventions would have
required, “at most, routine [experimentation],” as the
chemistry for internal labeling “w[as] known in the art”
and a polynucleotide longer than 15 nucleotides “could be
joined together through ligation.” (Id. at 14-15; see also
id. at 6 (“The inventions of the ’180 [p]atent . . . pertain
to nucleic acid hybridization and detection, which was a
decades-old field by the time of the original application
for the ’180 [p]atent.”))
In its reply, Hologic argues that “Enzo’s contention
that . . . claim scope is ‘irrelevant’ . . . turns the enablement

61a
Appendix C
requirement on its head,” as “[t]he law makes clear that
a specification must enable the full scope of the claimed
invention.” (D.I. 266 at 4) (emphasis omitted) Hologic
notes that “the claims are not limited to the preferred
embodiments” — but, even if they were, “[n]othing in the
[specification] teaches one how to select the length and
sequence of a polynucleotide within the preferred 5 to 500
nucleotides or how to decide where to place the 1 to 100
phosphate-labeled nucleotides within the polynucleotide
of 5-to-500 nucleotides long.” (Id. at 6-7) In Hologic’s
view, the specification also “fails to describe” other
aspects of the invention — for example, a “phosphatelabeled polynucleotide[] that maintain[s] hybridizability
and detectability.” (Id. at 5) Hologic further argues that
Example V “does not describe any actual phosphate
labeling” (id. at 1), does not disclose “the sequence or the
length of the precipitated DNA” (id. at 2), and does not
“indicat[e] whether the reaction is complete or successful”
(id.).
While Enzo asserts that “the missing information
could be found within the knowledge of a skilled artisan,”
Hologic replies that “the specification . . . must supply
the novel aspects of an invention in order to constitute
adequate enablement.” (Id. at 5) (internal quotation marks
omitted) Moreover, even taking into account what a POSA
knew at the pertinent time, that still “fails to show any
actual example of internal phosphate labeling by any
method prior to June 1982.” (Id. at 3) (discussing Dr.
Backman’s testimony; emphasis omitted) Finally, Hologic
disputes Enzo’s assertion that the inventions of the ’180
patent pertain to a “decades-old field.” (D.I. 247 at 6) In

62a
Appendix C
Hologic’s view, “the field of the claimed invention . . . is
the phosphate labeling of a polynucleotide,” which was
“new” and “highly unpredictable” as of the priority date.
(D.I. 266 at 6) (citing testimony of Dr. Backman, Enzo’s
expert, that “[t]here was ignorance in the art about nonradioactively labeling a nucleic acid probe . . . before [the
priority date]”) (internal emphasis and quotation marks
omitted; first alteration in original)
“To prove that a claim is invalid for lack of enablement,
a challenger must show by clear and convincing evidence
that a person of ordinary skill in the art would not be
able to practice the claimed invention without ‘undue
experimentation.”’ Alcon Research Ltd. v. Barr Labs.,
Inc., 745 F.3d 1180, 1188 (Fed. Cir. 2014) (quoting Wands,
858 F.2d at 736-37). The Court finds that there is no
genuine dispute of fact that the ’180 patent specification
lacks enablement. A reasonable jury simply could not find
for Enzo. Instead, the only conclusion a reasonable jury
could reach is that clear and convincing evidence proves
the ’180 patent is invalid for noneablement.
“[T]he specification must teach those of skill in the art
how to make and how to use the invention as broadly as
it is claimed.” In re Goodman, 11 F.3d 1046, 1050 (Fed.
Cir. 1993) (internal quotation marks omitted; emphasis
added). Here, the claims are extremely broad. Even
limiting claim scope to the preferred embodiments (for
argument’s sake), Hologic correctly points out that the
specification does not teach “one how to select the length
and sequence of a polynucleotide within the preferred 5 to
500 nucleotides or how to decide where to place the 1 to 100
phosphate-labeled nucleotides within the polynucleotide of

63a
Appendix C
5-to-500 nucleotides long.” (D.I. 266 at 7) Moreover, even
if the Court accepts Enzo’s contentions that Example V
discloses internal labeling and that “[t]he inventions of the
’180 patent . . . pertain to . . . hybridization and detection”
(D.I. 247 at 6), neither Example V nor other parts of the
specification indicates whether an internal phosphatelabeled polynucleotide “maintain[s] hybridizability and
detectability” (D.I. 266 at 5; see also generally Genentech,
Inc. v. Novo Nordisk A/S, 108 F.3d 1361, 1366 (Fed.
Cir. 1997) (“Patent protection is granted in return for
an enabling disclosure of an invention, not for vague
intimations of general ideas that may or may not be
workable.”)) As such, again as Hologic explains, a POSA
“would have no choice but to make and test a vast number
of possible variants to the claimed invention.” (D.I. 266
at 7) That is, undue experimentation would be required,
rendering the claims non-enabled.
The Court agrees with Hologic’s comparison of the
present situation to that confronted by the Federal Circuit
in Wyeth v. Abbott Laboratories, 720 F.3d 1380 (Fed. Cir.
2013). In Wyeth, the Federal Circuit affirmed a grant of
summary judgment based on nonenablement. See id. at
1386. Here, “(1) the claims are far broader than in Wyeth,6
(2) the disclosures here are far less than in Wyeth,7 (3) the
6. As Hologic argues, the “millions (or more) of phosphatelabeled polynucleotides with varying sequences and lengths covered
by each asserted claim of the ’180 patent far exceed the tens of
thousands of sirolimus analogs in Wyeth.” (D.I. 222 at 11)
7. As Hologic argues, “[w]hile the specification in Wyeth
disclosed at least one working example of the claimed invention
(sirolimus), the ’180 patent discloses none.” (D.I. 222 at 12)

64a
Appendix C
relevant field is even more unpredictable than in Wyeth,
and (4) the trial-and-error process would have taken even
longer than in Wyeth.” (D.I. 266 at 4) It follows that, here,
as in Wyeth, there is no genuine dispute that the claims
are invalid due to nonenablement.
This same conclusion is supported by consideration
of the Wands factors. See 858 F.2d at 737. Based on
the record, a reasonable factfinder could only find: (1)
the quantity of experimentation necessary to arrive at
embodiments equal to the full scope of the claims is undue;
(2) insufficient direction or guidance is presented in the
patent to allow a POSA to avoid undue experimentation;
(3) insufficient working examples are present; 8 (4)
the invention arises in a field of art that was highly
unpredictable at the time of the invention; (5) the prior
art showed that the pertinent field was unpredictable; (6)
even though the relative skill of those in the art was high,
POSAs at the time did not have sufficient knowledge to
“fill in” all that is missing from the patent; (7) the art was,
as already noted, highly unpredictable; and (8) the claims
are extremely broad. (See D.I. 223-1 Ex. 1 ¶¶ 503-33)
8. Enzo admitted during prosecution of the ’180 patent that
Example V is a “‘paper,’ rather than ‘working example[] . . . .’” (D.I.
223-3 Ex. 17 at ENZO-0096256) In this litigation, Enzo attempts to
create a dispute of fact by pointing to testimony that one inventor
has some recollection of Example V being performed “around ’82,
I don’t remember that now.” (D.I. 250 at A294) Even assuming a
reasonable finder of fact could conclude, on this record, that some
version of Example V was carried out by the inventors, the overall
record remains one on which a reasonable finder of fact could only
find that the claims are not enabled.

65a
Appendix C
Enzo opposes this conclusion, arguing that “chemistries
. . . known in the art at the relevant time . . . could have
been used to create a polynucleotide” that meets claim
1’s limitations. (D.I. 247 at 14) Enzo’s argument, however,
“ignore[s] the essence of the enablement requirement.”
Genentech, 108 F.3d at 1366. “It is the specification,
not the knowledge of one skilled in the art, that must
supply the novel aspects of an invention in order to
constitute adequate enablement.” Id. “[W]hen there is
no disclosure of any specific starting material or of any
of the conditions under which a process can be carried
out, undue experimentation is required.” Id. Thus, Enzo’s
references as to what “wa[s] known in the art” (D.I. 247
at 14) are unavailing; “a failure to meet the enablement
requirement . . . cannot be rectified by asserting that all
the disclosure related to the process is within the skill of
the art,” Genentech, 108 F.3d at 1366.9
Accordingly, the Court will grant Hologic’s motion
for summary judgment that the ’180 patent is invalid for
nonenablement.10
9. Additionally, even if the Court were to consider Enzo’s
assertions as to the state of the art at the priority date, the record
indisputably establishes that “there was ignorance in the art about
non-radioactively labeling a nucleic acid probe (including nonradioactively labeling any oligo - or polynucleotide in a probe) at a
phosphate moiety before June 23, 1982.” (D.I. 267-1 Ex. 30 at 20)
(emphasis added) Enzo’s assertions, therefore, do not conclusively
establish that the relevant chemistries were “well known in the art”
at the time the ’180 patent was filed. Genentech, 108 F.3d at 1366.
10. The Court recognizes that, during prosecution, Enzo
overcame a nonenablement rejection. (See D.I. 247 at 3-4) (citing

66a
Appendix C
IV.	CONCLUSION
For the foregoing reasons, the Court will deny
Defendants’ motion with respect to the written description
requirement and will grant Hologic’s motion with respect
to nonenablement. An appropriate Order follows.

D.I. 250-1 at A583-623, 636-49, 651-58, 660-66, 668-75, 677-83,
685-91, 693-775, 777-84, 786-802, 804-23) However, as Hologic aptly
observes, “the Examiner only considered Enzo’s argument and was
not presented with the overwhelming evidence of nonenablement set
forth in Defendants’ summary judgment briefing.” (D.I 266 at 4 n.4)

67a
APPENDIX D —Appendix
DENIALDOF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT,
FILED OCTOBER 29, 2019
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
ENZO LIFE SCIENCES, INC.,
Plaintiff-Appellant
v.
ROCHE MOLECULAR SYSTEMS, INC., ROCHE
DIAGNOSTICS CORPORATION, ROCHE
DIAGNOSTICS OPERATIONS, INC., ROCHE
NIMBLEGEN, INC., BECTON, DICKINSON
AND COMPANY, AKA BECTON DICKSON AND
COMPANY, BECTON DICKINSON DIAGNOSTICS
INC., AKA BECTON DICKSON DIAGNOSTICS,
GENEOHM SCIENCES INC., ABBOTT
LABORATORIES, ABBOTT MOLECULAR, INC.,
Defendants-Appellees
2017-2498, 2017-2499, 2017-2545, 2017-2546
Appeals from the United States District Court for the
District of Delaware in Nos. 1:12-cv-00106-LPS, 1:12-cv00274-LPS, 1:12-cv-00275-LPS, 1:13-cv-00225-LPS, Chief
Judge Leonard P. Stark.

68a
Appendix D
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges*.
PER CURIAM.
ORDER
Appellant Enzo Life Sciences, Inc. filed a combined
petition for panel rehearing and rehearing en banc. A
response to the petition was invited by the court and filed
by Appellees Abbott Laboratories, Abbott Molecular, Inc.,
Becton Dickinson Diagnostics Inc., Becton, Dickinson and
Company, GeneOhm Sciences Inc., Roche Diagnostics
Corporation, Roche Diagnostics Operations, Inc., Roche
Molecular Systems, Inc. and Roche NimbleGen, Inc. The
petition was referred to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
* Circuit Judge Moore did not participate.

69a
Appendix D
The petition for rehearing en banc is denied.
The mandate of the court will issue on November 5,
2019.
FOR THE COURT
October 29, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

